<html>
<title> - NOMINATIONS OF DONALD J. BARRY AND SALLYANNE HARPER</title>
<body><pre>[Senate Hearing 105-594]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-594


 
          NOMINATIONS OF DONALD J. BARRY AND SALLYANNE HARPER

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                 NOMINATIONS OF DONALD J. BARRY, TO BE
          ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND PARKS,
                       DEPARTMENT OF THE INTERIOR

                                  and

                        SALLYANNE HARPER, TO BE
                        CHIEF FINANCIAL OFFICER,
                    ENVIRONMENTAL PROTECTION AGENCY

                               __________

                            FEBRUARY 3, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works


                       U.S. GOVERNMENT PRINTING OFFICE
  49-524 cc                  WASHINGTON : 1998

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                            FEBRUARY 3, 1998

                                                                   Page

                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......    18
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     4
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     5
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     6
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     4

                               WITNESSES

Barry, Donald J., nominated to be Assistant Secretary for Fish 
  and Wildlife and Parks, U.S. Department of the Interior........     7
    Biography....................................................    30
    Committee questionnaire......................................    31
    Prepared statement...........................................    28
    Responses to additional questions from:
        Senator Chafee...........................................    37
        Senator Kempthorne.......................................    38
Harper, Sallyanne, nominated to be Chief Financial Officer, 
  Environmental Protection Agency................................    24
    Biography....................................................    43
    Committee questionnaire......................................    46
    Letters:
        Grizzle Company..........................................    45
        EPA, Office of General Counsel...........................    55
    Memorandum, Ethics Agreement, from Sallyanne Harper to EPA 
      Ethics official, with attachments..........................    57
    Prepared statement...........................................    42
    Responses to additional questions from Senator Chafee........    61

                          ADDITIONAL MATERIAL

Article, Who Watches the EPA, Denver Post, February 2, 1998......    20
Letters:
    Grizzle, Charles L., The Grizzle Company.....................    45
    Herman, Steven A., Assistant Administrator, Office of 
      Enforcement and Compliance Assurance and William P. 
      Yellowtail, Regional Administrator, EPA Region.............    18
    Hight, Robert C., Executive Officer, California State Land 
      Commission.................................................    41
    Peterson, R. Max, International Association of Fish and 
      Wildlife Agencies..........................................     2
    Powell, Ray, M.S., D.V.M., Commissioner of Public Lands, 
      Western States Land Commissioners Association..............    42
    Relative to the nomination of Donald J. Barry, several former 
      Assistant Secretaries for Fish and Wildlife................     2
Memorandum, Ethics Agreement, from Sallyanne Harper to EPA Ethics 
  official, with attachments.....................................    57
Statement, Humane Society of the United States...................    42




          NOMINATIONS OF DONALD J. BARRY AND SALLYANNE HARPER

                              ----------                              


                       TUESDAY, FEBRUARY 3, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Baucus, Thomas, Kempthorne, 
Allard, Wyden, and Sessions.

 OPENING STATEMENT OF HON. JOHN H. CHAFEE, A U.S. SENATOR FROM 
                   THE STATE OF RHODE ISLAND

    Senator Chafee. Good afternoon. I want to welcome everyone 
here. This is a hearing on the nominations of Donald J. Barry 
and Sallyanne Harper. This is before the full committee and 
members will be coming in. As many people know, there are 
luncheon caucuses of each of the respective parties held on 
Tuesdays. The Republican one was running very late today. As 
for the Democratic one, I can only assume likewise. So we look 
forward to additional Senators coming in.
    What we will first do is take up the Presidential 
nomination of Donald J. Barry to be Assistant Secretary for 
Fish and Wildlife and Parks in the Department of the Interior.
    The President nominated Don Barry on November 7, just 
before Congress adjourned. The paperwork of both candidates is 
in; it is my intention that the committee, hopefully, will be 
able to act on these nominations before the end of the week.
    Why don't you come up, Mr. Barry, and take a seat at the 
table.
    I would like to give a special welcome to Mr. Barry, and at 
the same time if he might perhaps introduce the members of his 
family. I understand your wife is here, and your parents?
    Mr. Barry. Yes, that's correct. Teiko Saito is my wife, and 
my parents, George and Kathryn Barry.
    Senator Chafee. Good. We are delighted that you are here.
    Don Barry is an excellent candidate for the position before 
him. He has a long record in public service in natural resource 
policy and management. If confirmed, the laws and programs 
within this committee's jurisdiction that he will oversee 
include the Endangered Species Act, the National Wildlife 
Refuge System, the Coastal Barrier Resource System, the Wallop-
Breaux Act, the North American Wetlands Conservation Act, and 
the Duck Stamp Act, and there are others in addition.
    Don Barry has been in natural resource policy and has seen 
it through congressional eyes and administrative eyes. The 
committee first had reason to take note of Don Barry when he 
worked as Majority General Counsel for the House Merchant 
Marine and Fisheries Committee in the late 1980's. For 14 years 
of his 23-year career he served in a number of capacities 
within the Department of the Interior. In a remarkable display 
of unanimous support, all eight of his predecessors, both 
Republicans and Democrats, have written a glowing letter of 
recommendation on his behalf. Without objection, the letter 
will be printed in the hearing record.
    [The referenced letters follow:]

   International Association of Fish and Wildlife Agencies,
                                  Washington, DC, January 27, 1998.
Hon. John Chafee, Chairman,
Committee on Environment and Public Works,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: I write to share with you the strong support of 
the International Association of Fish and Wildlife Agencies for Donald 
J. Barry's nomination for Assistant Secretary of Interior for Fish, 
Wildlife and Parks. Mr. Barry has long-standing, close and cooperative 
relationship with the State fish and wildlife agencies, which, as you 
are aware, are all members of the International Association of Fish and 
Wildlife Agencies. I urge your quick and favorable recommendation that 
the Senate confirm Mr. Barry and ask that you facilitate expeditious 
floor action to fill this position which has been open for many months.
    As you are aware, Mr. Chairman, the State fish and wildlife 
agencies have principal authority for fish and wildlife within their 
borders. Even where Congress has given the Federal agencies certain 
conservation responsibilities (for migratory birds, listed threatened 
and endangered species, and anadromous fish), the States' jurisdiction 
remains concurrent. This thus requires close collaboration between 
Federal and State agencies if conservation objectives are to be met. 
Mr. Barry has demonstrated keen knowledge of fish and wildlife law, 
understanding and respect for the States' authority for fish and 
wildlife, and an openness and willingness to work cooperatively with us 
in advancing conservation objectives. We have worked closely with Mr. 
Barry in his deputy and then acting capacity on several important 
activities including successful enactment of the National Wildlife 
Refuge System Improvement Act of 1997, Sikes Act Improvements of 1997, 
and ratification of Migratory Bird Treaty amendments. We have and 
continue to work closely with Mr. Barry also on administrative and 
legislative improvements to the Endangered Species Act, and 
implementation of the Convention on International Trade in Endangered 
Species of Fauna and Flora. In all of these efforts, Mr. Barry has been 
cooperative and responsive to the States' interests and concerns.
    Mr. Chairman, the fish and wildlife resources and the citizens of 
the United States will be well served by Mr. Barry, and in recommending 
expeditious confirmation, I bring to you the full support of the 
Association for Mr. Barry.
    Thank you for your attention to the Association's perspectives.
            Sincerely,
                                           R. Max Peterson,
                                          Executive Vice President.
                                 ______
                                 
Hon. John H. Chafee, Chairman,
Committee on Environment and Public Works,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Each one of us has had the privilege and the 
honor of serving at the Department of the Interior as the Assistant 
Secretary for Fish and Wildlife and Parks. Spanning 26 years and six 
Administrations, we know first-hand what the position of Assistant 
Secretary requires in terms of skills and experience. While our 
personal views on the National Park Service and U.S. Fish and Wildlife 
Service cover the political spectrum and may at times differ, there is 
one matter that unites us all in common agreement: that Don Barry 
should be confirmed as the next Assistant Secretary for Fish and 
Wildlife and Parks.
    We have all worked directly with Don for many, many years and 
believe that he is a person with exceptional integrity, knowledge and 
skill. He is straight-forward, honest and direct and is a superb 
consensus seeker and coalition builder. He has always approached 
conservation issues in a constructive bipartisan manner and is a person 
who follows through on his commitments and gets things done.
    In addition to being a nationally recognized expert in wildlife 
conservation and natural resource law, he has over 23 years of 
experience in working in, or with, the Office of the Assistant 
Secretary for Fish and Wildlife and Parks, having served as Counselor 
to the Assistant Secretary, Deputy Assistant Secretary, and Acting 
Assistant Secretary. In short, few people considered for Presidential 
appointment have had as much direct experience with the office for 
which they have been nominated as Don Barry has had with the Office of 
Assistant Secretary for Fish and Wildlife and Parks.
    For all of the above reasons, we urge your Committee to pass 
favorably upon Don's nomination for Assistant Secretary and to move it 
promptly to the Senate floor.
            Sincerely,
                                   Robert Herbst,
                                             Assistant Secretary.

                                   Nathaniel Reed,
                                             Assistant Secretary.

                                   G. Ray Arnett,
                                             Assistant Secretary.

                                   Constance Harriman,
                                             Assistant Secretary.

                                   George T. Frampton,
                                             Assistant Secretary.

                                   William Horn,
                                             Assistant Secretary.

                                   Honorable Mike Hayden,
                                             Assistant Secretary.
                                 ______
                                 

    Senator Chafee. In recent years Mr. Barry has worked 
extensively with members and staff of this committee on the 
reauthorization of the Endangered Species Act and other tough 
issues. Without his tireless efforts I do not know whether we 
would have succeeded in forging the consensus on the Endangered 
Species Act reauthorization and reporting the bill out of this 
committee.
    Throughout his career, and particularly in his work with 
the Senate, Mr. Barry has demonstrated two qualities that have 
proven to be constants: a commitment to conservation of natural 
resources, and an ability to find solutions to difficult 
problems. I must say that in this job he will need both of 
those capabilities.
    Personally, let me just say that in any reincarnation that 
I might have to come back to this world again, I'd like to be 
Assistant Secretary for Fish, Wildlife and Parks.
    [Laughter.]
    Senator Chafee. A close friend of mine, Nat Reid, had that 
job and told me a lot about it. So if you see somebody that 
looks like me lined up at that table for this job in the year 
2040, you can say, ``I knew that fellow before.''
    [Laughter.]
    Senator Chafee. As the steward of the National Wildlife 
Refuge System and the National Park System, your decisions are 
of great interest and import. I know that you will be a strong 
advocate for these national treasures.
    Senator Chafee. And now, the ranking member of the 
committee, Senator Baucus.

 OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman. I think I will be 
lined up there, too.
    [Laughter.]
    Senator Baucus. I agree with you.
    I, too, want to welcome Mr. Barry. We are very honored, 
frankly, to have you here, Donald, and we know that you're 
going to do very, very well.
    It is also good that your family is here--Teiko--would you 
stand, please, or have all your family stand so that we can all 
recognize them, Teiko and George and Kathryn?
    [Applause.]
    Senator Baucus. Mr. Chairman, you have outlined much of Mr. 
Barry's past, which is all very good.
    I particularly want to commend you, Mr. Barry, for your 
help in working to reform the Endangered Species Act. Right 
here in this room, along with many other locations, you were 
most helpful along with many others in the Fish and Wildlife 
Service and the Department. We thank you for your efforts.
    We're not yet through. As you know, we have yet to 
reauthorize that act. It passed the full Senate and it passed 
the House, and I am very hopeful that with the combined efforts 
of both parties, Republicans and Democrats, along with this 
committee and the Administration, we will continue forward. It 
is an example of how teamwork and working together is so 
important in accomplishing anything that is truly worthwhile.
    On the other hand, partisanship and headline-grabbing and 
so forth is very counterproductive. Not only does it not get 
the job done, but it tends to cause people, correctly, to be 
disillusioned with the whole process.
    So I commend all of us, frankly, working together to get 
that bill out of the committee, which as you know was reported 
out at 15 to 3 in a bipartisan bill, so we can get that 
enacted. And we will continue to work with you on other 
issues--refuges, for example, wetlands, international wildlife 
agreements, which are also very important to our country. I 
just want to thank you for stepping up and taking this 
assignment, and I thank the President for nominating you, and I 
look forward to working with you.
    Thank you.
    Senator Chafee. Senator Thomas.

OPENING STATEMENT OF HON. CRAIG THOMAS, A U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Mr. Secretary, it looks like this is going to be kind of a 
love-in today. That's fine. I won't be able to stay long, but I 
did want to come also to welcome you. I intend to be at your 
hearing tomorrow; I am the subcommittee chairman of the Parks 
Subcommittee, so that also, of course, is there.
    I'm not quite as anxious to serve in that position as you 
are--wolves, for example, are a troublesome thing that is hard 
to find an answer to. I'm very much interested in the delisting 
process of the grizzly bears, which seems to go on endlessly, 
as well as some of the fish in the Colorado River. So there are 
some things that are difficult, but I'm very impressed with 
your background and where you've been, and I'm delighted that 
you're here.
    By the way, Mr. Chairman, the Secretary was good enough to 
come to Yellowstone during this recess. We had a snowmobile 
trip to look at the buffalo and all the problems that are 
there, and we were pleased to have that.
    So I do need to leave, but I will be back tomorrow, and I, 
too, wanted to welcome you here and wish you well.
    Thank you.
    Mr. Barry. Thank you very much.
    Senator Chafee. Well, thank you, Senator. I appreciate your 
taking the time to be here because that's helpful.
    Senator Kempthorne.

OPENING STATEMENT OF HON. DIRK KEMPTHORNE, A U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Mr. Chairman, thank you very much.
    Mr. Barry, I want to congratulate you on your nomination 
and acknowledge your wife and family; I believe your parents 
are here with you, as well.
    I am pleased to be here to offer some comments on the 
nomination of Don Barry to be Assistant Secretary for Fish, 
Wildlife, and Parks. I have gotten to know Don over the years 
and believe that he will be an effective and a successful 
Assistant Secretary.
    Don has had a lifetime of experience with the Endangered 
Species Act, both as a House staffer and during his long tenure 
at the Department of the Interior. To his credit, he has 
learned over that time that the ESA doesn't work as well as it 
should, or as it was intended to work. So I support Don Barry 
to be Assistant Secretary for two very important reasons.
    As you all know, I spent the last 3 years working on the 
Endangered Species Act reauthorization. Negotiations at times 
have been tense, but throughout the negotiations we have found 
Don Barry to be a problem-solver. That is a commodity that is 
rare here in Washington, DC.
    The second reason that I support Don Barry is that he 
agrees with Secretary Babbitt that the ESA needs changes to 
make it work better for species and for property owners. And I 
will tell you that Don has helped the negotiations to make 
those changes.
    Don has a daunting task ahead of him in his new position if 
he is confirmed, as I suspect he will be, and I strongly 
support that. The challenges that he will face in protecting 
fish and wildlife are profound. How will we, as a country, 
continue to protect all of our native fish, wildlife, and 
plants without jeopardizing families and communities? How will 
we protect fundamental property rights? And how will we bring 
species back from the brink of extinction? Cost overruns and 
Park Service projects are an embarrassment and demonstrate that 
a lack of sound management oversight will always result in 
inefficiencies.
    But I welcome Don Barry and hope that he will continue the 
good working relationship that I've certainly enjoyed with his 
help on the Endangered Species Act. I listened to Senator 
Baucus and his comments, and I appreciate the partnership that 
we've established on this committee. What we need to do is 
bring the ESA to the floor. We need to deal with that issue, 
then send it from the Senate to the House, where I think they 
will take it up, and I think that we can finally do something 
meaningful for species and for people.
    Don, I want to give you credit as someone who has helped 
get us to this point.
    Thank you.
    Mr. Barry. Thank you very much.
    Senator Chafee. Well, thank you, Senator. Your testimony is 
particularly telling because you have worked so closely with 
Mr. Barry over the years--I didn't know it was 3 years. That 
makes us all weary, doesn't it? But you've certainly worked a 
long time on the Endangered Species Act. It is my hope, as I 
know it is your hope, that we can get to it this calendar year, 
and before long.
    Senator Kempthorne. Mr. Chairman.
    Senator Chafee. Yes?
    Senator Kempthorne. May I, too, just excuse myself? I have 
to return to an Armed Services hearing, but I wanted to be here 
to show my support.
    Senator Chafee. Thank you.
    Senator Sessions.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Barry, I enjoyed an opportunity to talk with you 
yesterday. You come highly recommended. Our mutual friends whom 
we admire respect you, and I think that means a lot to me.
    I noticed in your remarks you said there were three 
influences important to you: your parents, the small-town 
environment, and Boy Scouts. I can identify with that and I 
think those are good factors that influenced you. If you allow 
those characteristics and values that you learned in those 
institutions to guide you, I think you'll do very, very well.
    You also mentioned that you wanted to use common sense and 
avoid confrontation and avoid too much certitude and too many 
loud voices. I think those are probably good, too.
    Sometimes we have problems. I mentioned to you, as we 
chatted previously, about the red cockaded woodpecker and the 
forest industry that is so important to my State. This morning 
I see in my clips an article out of a Sunday paper, ``Bird 
Taking Bite out of Escambia Funds.'' It's an article about 
substantial reduction in timber cutting in the Escambia-Conecuh 
Forest, because they have a growing red cockaded woodpecker 
population, which we want to nourish. But apparently they are 
changing--and I would like to just ask you if you would talk to 
me about this as time goes by--apparently the Forest Service is 
moving from a timber cutting rotation of 80 years, which in 
Alabama 50 to 60 is normal, to 120 years because the very older 
trees are more habitable for the woodpeckers. That is a very 
uneconomical plan. School systems in that multicounty area 
benefit from the cutting, which apparently will be reduced even 
further.
    I have no doubt, and I've talked to a number of people this 
morning, that we could take the steps necessary to maintain the 
habitat for the woodpecker without having this kind of problem.
    Now, I think the question would be this. I think the Forest 
Service tends to want to blame it on the Fish and Wildlife 
Service, and you may conclude it's the Forest Service, but I do 
think the people there, the school boards and superintendents, 
are raising questions about that.
    Would you be willing to talk to me about that? And if we 
could determine that a better plan for handling that timber 
could be identified, that you would support that?
    Mr. Barry. Senator, I am completely clueless and unfamiliar 
with the particulars for that situation that you just 
described. I would be more than willing to work with your staff 
to get more information about this particular case, talk to the 
Director of the Fish and Wildlife Service, and then suggest 
that the Director of the Fish and Wildlife Service, Jamie 
Clark, and I circle back to you with more information once 
we've had a chance to learn more about this problem.
    Senator Sessions. Well, I understand that and I respect 
that. Apparently there are 14 clusters of two to six 
woodpeckers in this 89,000 acre forest, and the goal was to 
have 200. The goal was to go up to 200. I think the species is 
growing and rebounding rather nicely around the country.
    So this is the kind of thing where I believe if we use our 
good judgment, we can maintain proper harvesting, because it's 
not healthy for a pine forest to get too old. Beetles get into 
it; trees start dying from other causes; it can cause fire and 
other dangers.
    So, Mr. Chairman, I appreciate that. I enjoyed my 
conversation with Mr. Barry. I think he has the background and 
the integrity to do a good job, and I look forward to working 
with him.
    Senator Chafee. Thank you, Senator.
    Mr. Barry, there are a couple of obligatory questions that 
I would like to ask you now.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Mr. Barry. I will.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Mr. Barry. I do not.
    Senator Chafee. All right, fine.
    Now why don't you proceed with your statement, Mr. Barry.

STATEMENT OF DONALD J. BARRY, NOMINATED BY THE PRESIDENT TO BE 
   ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND PARKS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Barry. Thank you, Mr. Chairman, members of the 
committee.
    Many people who go through the nomination process before 
this committee State how honored and humble they feel to be 
nominated for a higher office by the President of the United 
States. No matter how frequently you may have heard this 
statement from other nominees, it nevertheless is true. To be 
nominated as the Assistant Secretary for Fish, Wildlife, and 
Parks is the greatest honor I have been accorded in a long 
career of public service. It is also the greatest challenge and 
responsibility that I have been asked to carry since arriving 
in Washington, DC 23 years ago.
    I would like to express my deepest thanks to President 
Clinton and Secretary Babbitt for placing their confidence and 
trust in me and my ability to fulfill the responsibilities of 
Assistant Secretary.
    When I reflect back upon the major forces or influences of 
my life that have helped bring me before you today, three 
things stand out in importance.
    First and foremost has been the influence of my parents, 
highly educated and completely devoted to each other and the 
four children that they raised. My parents taught me the 
importance of many things in life, including the need for 
honesty and ethics in dealing with people, the virtue of hard 
work and doing your best, and the value of public service.
    My parents also instilled in me at a very early age a deep 
appreciation for the outdoors and the beauty of nature. Whether 
it was camping in Colorado, rock collecting in the Dakotas, 
bird watching in Wisconsin, or canoeing in Minnesota's boundary 
waters, our family outdoor summer vacations stimulated my 
earliest thinking about a career in conservation.
    I admire my parents for many, many things, but most of all 
I admire and thank them for instilling in me a life-long love 
of the natural areas of this country, of wild things and wild 
places.
    The second major influence in my life was growing up in a 
small town in rural America. A former Congressman once lamented 
that the biggest problem with Washington, DC was that people 
stayed here too long and ended up confusing themselves with the 
rest of the monuments.
    Although I have lived in Washington, DC for almost a 
quarter of a century, I believe that I have never lost touch 
with where I came from or where my roots began. I grew up in a 
small agricultural community in southern Wisconsin, where hard 
work was a way of life; honesty was considered a mandatory 
virtue; and public service was considered your civic duty and 
not the 13-letter equivalent of a 4-letter word.
    In a small rural community you learn very quickly the 
importance of being straight with people, of keeping your word.
    The third major influence in my life was the Boy Scouts of 
America. Beginning at age 13, I spent nine of the best summers 
of my life working on the staff of a Boy Scout camp in northern 
Illinois. Advancing from the position of nature director to 
ultimately the program director for the entire camp, my days in 
scouting enhanced my love of the outdoors and taught me early 
lessons of leadership and the importance of a life of public 
service.
    These three influences--my parents, growing up in a small, 
rural town in the Midwest, and the Boy Scouts of America--have 
contributed significantly to what I stand for and believe in 
today.
    It is my view that the position of Assistant Secretary for 
Fish, Wildlife, and Parks is one of the most important 
positions in the Federal Government today. While other 
positions may make greater contributions in important areas 
such as public health or education, no other governmental 
portfolio carries a greater trust responsibility for the 
American people than one involving the conservation and 
enhancement of this Nation's wildlife, cultural, historic, and 
park resources.
    At times this daunting task seems to be beyond the 
capabilities of any one person. As obvious as my own 
shortcomings may be, I nonetheless believe there are four 
reasons why you should favorably consider my nomination to be 
considered for Assistant Secretary.
    To begin with, I offer you my experience. I believe that my 
years in Washington, DC have provided me with a clear 
understanding of the varying roles and responsibilities of the 
office of Assistant Secretary for Fish, Wildlife and Parks. I 
have either worked in or worked with this particular office for 
almost a quarter of a century. From 1975 to 1986, I provided 
legal advice to the Assistant Secretary for Fish, Wildlife and 
Parks through a variety of positions in the Solicitor's Office 
at the Department of the Interior. Since my return to the 
Department in 1993 as a political appointee, I have alternately 
served as the counselor to the Assistant Secretary, the Deputy 
Assistant Secretary, and the Acting Assistant Secretary.
    Moreover, during the 6 years that I worked for the House of 
Representatives I was responsible for the Merchant Marine and 
Fisheries Committee's congressional oversight of the Assistant 
Secretary's office. It thus could be said that I have 
interacted with past Assistant Secretaries for Fish, Wildlife 
and Parks from a variety of angles.
    I believe, therefore, that I have the practical experience 
and insight that one would want in an Assistant Secretary.
    In addition with my familiarity with the office of 
Assistant Secretary, I have also worked for over 20 years with 
the two agencies that this office oversees, the U.S. Fish and 
Wildlife Service and the National Park Service. I served for 12 
years as an attorney for the Fish and Wildlife Service, 
including 6 years as that agency's Chief Counsel. As a result 
of this prior professional relationship, I have longstanding 
personal ties with virtually every regional director in the 
Service and most of the agency's field supervisors.
    Moreover, I have worked directly with the Director of the 
Fish and Wildlife Service, Jamie Clark, for many years and 
believe that we have established a solid record of solving 
problems together.
    While my past involvement with the National Park Service 
may not be as extensive as with the Fish and Wildlife Service, 
I nevertheless am familiar with key programs of the National 
Park Service and have established an excellent working 
relationship with its Director, Bob Stanton.
    I also have longstanding personal relationships with many 
of the senior leaders in the National Park Service. For 
example, I met two of the current regional directors for the 
Park Service while working on park issues for the Department 
during the passage of the Alaska Lands Act in the late 1970's. 
I thus am no stranger to the policies and programs of the 
National Park Service.
    The second reason I would offer you to consider supporting 
my nomination is my long record of bipartisan collaboration in 
preserving America's natural resources. Mr. Chairman, I have 
never seen a Democratic flock of geese or a Republican sunset 
over Yosemite Valley. Labels of exclusive political ownership 
may be the bread and butter for Washington pundits, but they 
are contrary to the history of conservation in this country. 
Our greatest gains in preserving our natural, cultural, and 
historical legacy have occurred when men and women of both 
political parties have set aside their differences and forged a 
common ground on behalf of the American people.
    There are plenty of partisan political issues to be divided 
over. The preservation of our parks and our wildlife resources 
should not be among them.
    The third reason for which I would hope you would favorably 
consider my nomination is that I appreciate the special role 
reserved for the Congress by the Constitution in the 
development and implementation of this country's natural 
resource policies. Having spent 6 years as General Counsel for 
a committee chairman in the House of Representatives, I 
understand firsthand the importance of balanced congressional 
oversight of the administrative implementation of our laws. So 
long as inquiries are fair, I will always welcome the input 
from Congress in assessing how well we are doing; for, in the 
end, we are all accountable to the American people, and only by 
working together can Congress and the executive branch enhance 
the natural and cultural heritage of this country.
    The final reason you should consider supporting my 
nomination is my personal approach to solving problems. Quite 
frankly, easy problems rarely work their way up the food chain 
to the desk of an Assistant Secretary. All too often the 
problems are complex and messy, involving large doses of 
conflicting facts and inflexible, dug-in opponents, each 
convinced that the other side is horribly, horribly wrong.
    Unfortunately, we seem to be losing our ability in this 
country to respectfully disagree with one another without being 
disagreeable. Our society seems to be shouting more and 
listening less. I believe that the reverse approach is 
necessary to be an effective Assistant Secretary. In order to 
fairly sort out conflicting facts and points of view, an 
Assistant Secretary should be accessible to all parties and be 
a particularly good listener.
    Judge Learned Hand once noted, ``The spirit of liberty is a 
spirit that is not too sure it is right.'' That spirit is 
jeopardized by too much certitude, by too much righteousness, 
and by an unwillingness or an incapacity to stand in another's 
shoes.
    I pride myself on being a good listener and on being open 
and accessible to different points of view. The fact that my 
candidacy has been endorsed by the leadership of such polar 
opposites as the Wilderness Society and the American Farm 
Bureau, the Safari Club and the Humane Society, and the 
California League of Conservation Voters and the Southern 
California Building Industry, will hopefully tell you more 
about my approach to solving problems than my ultimate 
decisions themselves.
    While many of these organizations will tell you that they 
disagree with some of my positions, they will also tell you 
that I am fair, I am balanced, and I listen carefully to what 
they say; for in the end, I am neither an ideologue from the 
right nor from the left. I am simply from Wisconsin.
    Winston Churchill once stated, ``We make a living by what 
we get. We make a life by what we give.'' As I come before you 
today I am asking you to give me another opportunity to serve 
the American people.
    I am proud to be associated with two of the finest agencies 
in the Federal Government, the National Park Service, and the 
U.S. Fish and Wildlife Service. I am honored to work on a daily 
basis with their dedicated employees, and I intend to be an 
advocate for our National Parks and this country's fish and 
wildlife resources. Anything less, in my mind, would disqualify 
me from this post.
    President John F. Kennedy, in his inaugural address, 
distilled the essence of public service in its purest form. He 
said, ``I am certain after the dust of centuries has passed 
over our cities, we, too, will be remembered not for victories 
or defeats in battle or in politics, but for our contribution 
to the human spirit.''
    With your confidence and support, I pledge to work 
diligently to enhance the park and wildlife resources of this 
country. In this small way I, too, may enhance the human spirit 
of this Nation.
    Thank you.
    Senator Chafee. Well, thank you very much, Mr. Barry, for a 
fine statement.
    I look on the National Parks as one of the great trusts 
given to all of us in the Federal service, elected and 
appointed, and the Fish and Wildlife Refuges and all of that 
are so important to our future generations. So we think you are 
going to be a good caretaker for that.
    I would ask that you not be hesitant when you have 
difficulties--I'm not asking you to jump the traces from your 
boss--but I want to stress that this committee is out here to 
help you. We're not in an adversarial position; we're here to 
help you solve problems. You're going to have a lot of 
problems. Some we will not be able to solve. Some we may not 
agree with you on. But you're going to have a sympathetic ear 
in this committee and we want you to feel free to use it.
    Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Barry, as you know, some of the environmental groups 
have raised concerns about the Endangered Species Act, and 
particularly the concern that it might not be fully funded. And 
I'm talking about the reauthorized bill that passed out of this 
committee, that it might not be fully funded through the normal 
appropriations process.
    Could you tell us, first, how much the President's budget 
includes for the program, and second, what actions are you 
planning to take to deal with that?
    Mr. Barry. Thank you. First of all, the President's budget, 
which was just released yesterday, contains the largest single 
increase in endangered species funding, I think, in the history 
of the program. The President is requesting an additional $36 
million, which would bring the overall budget for the program 
to about $113 million.
    Now, in particular for Senator Sessions, this is an 
important figure because one of the amendments that you offered 
during the committee markup was to readjust the authorization 
levels over the 5 years covered by the bill that was working 
through this committee.
    The authorization level in S. 1180, if I recall correctly, 
is $120 million for fiscal year 1999. The President's budget is 
coming in at $113 million. So even with the additional workload 
and responsibilities that we would have under your proposed 
legislation, I think the President's budget puts us in a good 
position, even without the bill signed into law at present--I 
think we're in a very good position to be able to implement it 
and to respond in a manner that will get us off to an excellent 
start.
    So I would--of course, not surprisingly--urge the members 
to give favorable consideration to the budget proposal which 
has just come out. We tried to the best of our ability to 
anticipate the requirements and responsibilities under the new 
act. We think we have put together a budget which will allow us 
to begin to respond accordingly.
    Senator Baucus. I appreciate that. I think many would say--
that is, those who favor the Act--that the Administration's 
budget request, although more than in the past, is probably not 
sufficient to implement the reforms fully. I would urge you in 
your capacity as Assistant Secretary to work with OMB and 
others to remedy that.
    I was struck by your comment that you like to listen. 
That's obviously a very good quality. The question I have, 
though, is what you plan to do to encourage others to listen, 
those out in the field. What plans do you have? I mention this 
in part because I believe that often we around here tend--no 
disrespect to your history and background--tend to 
automatically fill positions with ``experts'' in that area. For 
example, as IRS Commissioner, an accountant or a tax lawyer, an 
Assistant Secretary who is a professional in the area. And all 
that is important, but so much of the effectiveness of agencies 
has to do with how well they are managed and the people skills 
that are either there or not there.
    We in our country now are changing the nature of the person 
that we are naming to be, for example, the IRS Commissioner. 
This fellow is a management expert. He's not an accountant; 
that is Mr. Bob Rosotti. He's a management expert. In fact, he 
was very much part of a national effort to help turn IBM around 
back in the 1980's when IBM was king of the roost, could do no 
wrong, Big Blue, all of that. They just sat on their laurels a 
little too much; and upstart companies, Compaq and others, came 
along and lo and behold, IBM wasn't where IBM once was. And 
there was a huge problem of denial within the company. Once 
they had dealt with that, then they finally started to peel 
away layers and started to get up, go out, and just do a 180 
degree change. Instead of waiting for the customers to come in 
and order computers, they went out and talked to potential 
customers to see if they needed them.
    So it's very good that you listen, but you're only one of 
many people who are probably not going to be directly talking 
to all of our employers, who are the public.
    If for a moment or two you could just reflect on some of 
your ideas and what you institutionally plan to do in terms of 
the culture of the people you're with to listen more and serve 
more. That's not to cast any disrespect or aspersions on the 
various agencies. It's just that we always have to go the extra 
mile and work even a little harder. I'm just curious as to what 
your thoughts might be.
    Mr. Barry. Well, I think there are two things that I would 
do. First of all, I would set the example. You would be amazed 
at how quickly people start to follow your lead, and they see 
the leadership of their organization undertaking a particular 
task.
    When I have to deal with a particularly tough issue, I hate 
having to make the decisions based just on pieces of paper that 
I get fed to me while I'm sitting in Washington. I really 
believe that Government needs to be accountable for the people 
and the resources that are being affected on the ground. So the 
way that I try to demonstrate leadership in this area is to be 
willing to actually go out and sit down in the affected area 
with the people who are most upset about the particular issue, 
on all sides of the issue, and give them a chance to try to 
change my mind.
    I think when you do that in a position at my level, people 
in the agency start to watch you and they start to begin to 
follow your lead and follow your patterns. So that would be the 
first thing that would come to mind; it's up to me to set the 
example.
    I guess the second thing is that having worked in this area 
for so many years, I know people on virtually all sides of 
these key issues. I have worked with them all. I think one of 
the things that I would bring to the table is my ability to 
pull people together and to suggest that we sit down with the 
Farm Bureau and the Environmental Defense Fund and the 
Wilderness Society to begin a dialog or a discussion to see if 
we can't find common ground together.
    That would be the second thing that I would do. I would not 
only try to set the example myself, but I would urge others in 
the agencies to sit down and work among themselves.
    Senator Baucus. I appreciate that, and I see my time is up. 
Just one final question.
    How do you want to be remembered? When all is said and done 
and you are no longer Assistant Secretary, how do you want to 
be remembered? Or remembered for what?
    Mr. Barry. You know, actually, I've thought about that a 
bit. I think there are probably four things that quickly come 
to mind.
    First, I would like to leave this office with a stronger, 
more effective--emphasis on effective--Endangered Species Act. 
Not an act with bigger teeth, because I don't believe that that 
ultimately accomplishes what we need to accomplish, but an act 
that actually produces conservation benefits on the ground. I 
think that a lot of the administrative reforms that we have 
developed are designed as incentives with private landowners to 
increase their willingness to work with us in partnership. So I 
think the No. 1 thing I would like to be remembered for is 
having left the Endangered Species Act intact, with a stronger 
footing and an enhanced amount of support and participation by 
private landowners. I don't think we can accomplish what we 
need to accomplish under that act unless we get this support.
    The second thing that I would like to do is to follow 
through on some of the major environmental initiatives that 
were started in the first term of this Administration. The 
effort to restore the Everglades is a once-in-a-lifetime major 
challenge for this country. It's easy to start initiatives, but 
it's hard to keep them going. I think one of my 
responsibilities is to build on the excellent record that was 
started in the first term with the Everglades, with the 
California Desert, and so on, and to try to keep those on 
track, keep them on target, and to enhance their effectiveness.
    I think probably most importantly, though, I would like to 
be remembered as somebody who helped strengthen the two 
agencies that I oversee. One of the major reasons I decided to 
come back to the Interior Department in 1993 was to help get 
the next generation of leaders in place within the Park Service 
and the Fish and Wildlife Service. I'm seeing that happening 
right now. I think Jamie Clark will be a superb Director of the 
Fish and Wildlife Service, and some of the regional directors 
that are being chosen now are people who are quick-witted, that 
think outside the box, and are interested in solving problems. 
So if I could look back in another 2 years and see people like 
Jamie Clark scattered throughout the agencies, I will feel that 
this has really been time well served.
    The last thing, quite frankly, that I want to be remembered 
for is somebody who had fun.
    Senator Baucus. What are you going to do to have fun?
    Mr. Barry. Well, it sounds like a strange observation, but 
I think we have all gotten way too serious and too burdened in 
this city and have forgotten that governance should be a 
privilege and something that you really find enjoyment in. I 
think even the worst day in my office is still better than the 
best day in most other people's offices, and I would like 
people who work with me to feel the same way. Those of us that 
have the privilege of working on natural resource issues are 
incredibly fortunate. I go home every night just being 
incredibly thankful, and I want to feel that same way 2 years 
from now and I would like people to think, ``There's a person 
who really had a lot of fun.''
    Senator Baucus. Well, I want to echo the Chairman's 
thoughts, that you work with us, because we want to help you, 
too. I do think that if we do all that, we'll both have fun.
    Thank you.
    Senator Chafee. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I agree with Senator Baucus. You and I talked about this 
yesterday. You've got a significant agency with what looks like 
a good increase in your budgetary authority, and the tendency 
may be not to face the tough managerial decisions that you need 
to make early on in your tenure. Every dollar that you receive 
is taken from citizens of America, and they want it to work to 
preserve species and not to preserve turf or jobs or 
bureaucracies or that kind of thing.
    Mr. Barry. Senator Sessions, if I could just mention one 
thing, prior to coming here I had written down a couple of 
things regarding what I'd like to accomplish. I skipped over 
one point, if you will allow me to read it.
    I would like to enhance the quality of services to the 
American people. I want people to feel they got their money's 
worth. So I completely concur in what you're saying. Giving us 
more financial resources, if we don't use them wisely and 
effectively, really doesn't accomplish much, and I want people 
to feel at the end of the day that they got good governance out 
of us.
    Senator Session. The maximum protection for species and 
parks that we could possibly get for the dollar has been 
entrusted to you. I think that's a good goal.
    Looking at my schedule for the afternoon, I'm going to be 
meeting with some individuals from the Alabama Health 
Department, the Alabama Association of School Boards, the 
University of Alabama, and some armed services issues, all of 
which would like more money. So if you don't get everything you 
would prefer to have, it would be because we do have a lot of 
interested people who really and sincerely believe that theirs 
is the most important issue facing America, and it is sometimes 
difficult for us.
    Two things, and then I would conclude.
    The Habitat Reserve Program--you and I talked briefly about 
it. We did add some money to that program. Do you believe that, 
with leadership from your department, we could enhance the 
number of private landowners who act as quasi-stewards of 
properties, with some modest compensation from the Government 
to assist them?
    Mr. Barry. Senator, Jamie Clark is very interested in this 
idea, and in the President's budget, although it is a small 
amount, there is $5 million proposed to use for small grants 
for small landowners to encourage them to do proactive 
conservation things for endangered or threatened species. So 
this is parallel to the Habitat Reserve Program idea which is 
in the Senate bill, and it was our attempt to begin to line 
ourselves up in that general direction in support of that 
concept.
    Senator Sessions. I just think that in terms of certain 
animal species and plants, the size of the tracts may not need 
to be large; 10 acres or 15 acres may well help preserve a 
species. It would be difficult for the agency to manage that, 
and private landowners may be willing to join with you.
    Finally, with regard--I apologize, Mr. Chairman, for asking 
a question before you had had your remarks; coming in late, I 
assumed you'd made your remarks--but with regard to the 
situation with the red cockaded woodpecker, that is not a light 
thing. It's pretty significant. I am open-minded about it. But 
to follow up, would you be willing to listen if we have a 
problem there, and maybe consider helping us solve that 
problem?
    Mr. Barry. Senator, the first thing I would need to do is 
learn more about the scientific facts of the whole situation. 
The red cockaded woodpecker is probably the one endangered 
species in the south that has had more time and energy put into 
the development of its recovery plan. There have been a lot of 
people who have spent a lot of time working on it. I think 
they've revised the recovery plan at least once.
    What I would want to do is to sit down with the Fish and 
Wildlife experts to learn more about it, and then sit down with 
your staff--and you, if you are willing--to learn more about 
the specific problems in that one forest that you described.
    Senator Sessions. Well, that's all I'm asking, that at some 
point we be able to discuss it and you be open to discussion 
about it. If it's justified as apparently it is presently 
contemplated, so be it; if not, if you would be willing to 
consider changes, we'd appreciate that.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    I just wanted to say in connection with the red cockaded 
woodpecker, like others on this committee I've spent time on 
it, been up and down in North Carolina, seen some of the 
situations there. Some of the policies that have been 
developed--not statutory policies, but administrative policies 
by Interior and Fish and Wildlife--have helped the private 
landowners a great deal, the so-called ``safe harbor'' and ``no 
surprise'' policies. And in the Endangered Species Act we put 
those into statute so that they can't be attacked and removed. 
I think that when you have an opportunity in your discussions 
to become more familiar with ``no surprises'' and ``safe 
harbor''--I think they are both big steps forward for this 
particular species, as a matter of fact.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Barry, I very much appreciate your interest in looking 
at innovative approaches in terms of involving private 
landowners and how we're going to meet the Endangered Species 
Act requirements. I think the way we're going to protect 
species in the 21st century is to come up with creative new 
models for involving those private landowners. As you and I 
have talked about, we are convinced in Oregon that with our 
plan with the coho salmon, the first waiver from an Endangered 
Species Act listing in the country, that we are on our way to 
developing the kind of model that will make sense for the 
future. I offered an amendment in the Kempthorne-Baucus 
legislation to encourage more of these kinds of approaches.
    My question to you is, with respect to the bill in two 
areas, the habitat conservation plan and the ``no surprises'' 
policy, since the passage of the committee bill there have been 
various ideas and suggestions brought to us. Senator Baucus 
referenced some of the comments with respect to the funding. As 
you know, I organized a letter from a large group of Senators 
on that point specifically. But the question I wanted to ask 
you was, with respect to the habitat conservation plan 
standard, the bill looks to a provision that will not 
appreciably reduce the likelihood of the survival of a species, 
and it has been brought to our attention that the standard 
ought to try to recover a species rather than just simply do no 
harm.
    In the case of the ``no surprises'' policy, the suggestion 
has been largely to try to figure out a way to be able to use 
new information, information that comes to light since the 
original agreement was entered into, so as to be able to take 
advantage of additional scientific knowledge.
    On these two points, how you would look to recover a 
species rather than just do no harm, and second, how you would 
update an HCP under a ``no surprises'' plan, do you have any 
ideas on how you might use those standards and still keep this 
attractive to private landowners? In other words, you factor in 
new information as part of an HCP plan; you would look to 
recover species rather than just do no harm. But on both of 
those counts, both of them, do it in a way that would still be 
attractive to private landowners so that we can keep the 
centerpiece philosophy of the legislation?
    Mr. Barry. Senator, that's quite a plateful. Let me try to 
start off with the standard for HCPs.
    I think first of all, Congress has to decide what the real 
goal is here. In 1982, when Congress amended the Endangered 
Species Act and authorized HCPs, the goal was fairly simple. It 
was to provide a mechanism under the act to authorize 
incidental take, up to a certain level, in order to allow 
otherwise lawfully designed activities to take place.
    I don't believe at that time it was Congress' intention to 
make habitat conservation planning a mandatory recovery tool; 
it was to authorize incidental take. Now, Congress did require 
that there be conservation provisions and mitigation 
provisions, added in the course of the negotiations on an HCP 
to ensure that an HCP would not adversely affect a species in a 
significant way. I think since the HCP program has started, a 
number of people have increased their concerns that for some 
species it may have too significant an impact over the range of 
the species.
    I think we need also to keep in mind that a number of the 
recovery plans that are in existence today were developed 
without habitat conservation planning in mind as a conservation 
tool. They weren't even considering that as an option, and I 
think that may have influenced some of the terms and provisions 
of some of the recovery plans that we have today. One example 
that I will use, is in your back yard. When they were working 
on the final recovery plan for the northern spotted owl in the 
Pacific Northwest, they used a scientifically valid and 
credible template for the establishment of spotted owl 
reserves. When it was applied to the area of southwest 
Washington, which is very heavily private land, they estimated 
that the cost of implementation of that recovery plan could 
range anywhere from $200 million to $2 billion.
    Now, under the Kempthorne-Chafee-Baucus-Reid bill, one of 
the signature features of the recovery planning process is the 
inclusion of stakeholders in the recovery planning process. I 
think in the future, if that bill becomes law, habitat 
conservation plans will be one of the valid tools for 
conservation that will be factored in right from the get-go. I 
think it will be much easier to use recovery plans as a 
measure, a yardstick, for assessing the appropriateness of an 
HCP.
    I am somewhat concerned that a lot of the older plans which 
never took habitat conservation planning into account as a tool 
will not work as effectively if recovery is the standard, 
because I think the recovery plans never anticipated something 
like this.
    Senator Wyden. So on the first one you're saying that as we 
learn more about HCPs and you have newer plans, the standard 
may in fact evolve from ``do no harm'' to actual recovery?
    Mr. Barry. I think that's the case. I think also, though, 
we just have learned that habitat conservation planning can be 
a much more powerful tool, a much broader-scaled tool than we 
originally anticipated. And I think the effect of an HCP on a 
species' status rangewide makes the question of recovery more 
valid.
    I think the new bill would put us in a better position for 
using HCPs as a recovery tool. I think it's heading in that 
general direction.
    With regards to ``no surprises''----
    Senator Chafee. I'll tell you what, we've got one more 
questioner here plus another witness.
    Do you have another question, Senator?
    Senator Wyden. I'd even take that one for the record, Mr. 
Chairman.
    All I was asking on the second one is, I think we want to 
figure out a way to be able to update an HCP with new 
information and new science, while still keeping the private 
landowner with a sense of certainty of what's expected of him. 
And if you'd even answer that for the record, I'd be 
interested.
    Mr. Barry. I think the way to do that is to build adaptive 
management provisions into your HCP.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Chafee. OK, fine. Thank you very much, Senator.
    Senator Allard.

OPENING STATEMENT OF HON. WAYNE ALLARD, A U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    I had prepared a letter and article and I would ask that 
they be made a part of the record.
    Senator Chafee. Definitely.
    [The referenced material follows:]

                      U.S. Environmental Protection Agency,
                                  Washington, DC, January 28, 1998.
Hon. Roy Romer, Governor,
Denver CO.

RE: S.B. 94-139; Colorado's Audit Privilege and Penalty Immunity Law

    Dear Governor Romer: In January 1997, the Environmental Protection 
Agency (EPA) received a petition asking it to initiate proceedings to 
withdraw the State of Colorado's authority to administer the National 
Pollutant Discharge Elimination System (NPDES) program under the Clean 
Water Act. The petition is from Earthlaw, representing the Sierra Club, 
the Oil, Chemical & Atomic Workers International Union, Western 
Colorado Congress, and the High Country Citizen's Alliance.
    The basis of the petition is S.B. 94-139, enacted June 1, 1994, 
which creates an evidentiary privilege and provides penalty immunities 
relating to environmental audit reports and disclosures of violations 
of environmental laws. The petition alleges that because of these 
privileges and immunities, Colorado does not have the minimum authority 
required to administer the NPDES program.
    To assist EPA in evaluating the petition, EPA sent Colorado two 
letters asking detailed questions about the impact of S.B. 94-139 on 
Colorado's ability to administer federally-approved environmental 
programs. The first letter, dated July 3, 1997, focused on Colorado's 
NPDES program. Colorado answered this letter on November 18, 1997. A 
second EPA letter, dated August 19, 1997, dealt with other State 
environmental programs. To date, Colorado has not responded to the 
August 19 letter.
    EPA's analysis of Colorado's November 18 response indicates that in 
order for Colorado to maintain the minimum required authorities to 
administer and enforce the NPDES program, the State must amend S.B. 94-
139. We are writing to you today to lay out the changes that are 
needed. Listed below are the most critical issues that require 
amendment, but EPA also has legal concerns relating to the burden of 
proof in penalty proceedings, the in camera review process, and time 
periods for completing audits and coming into compliance, which may be 
addressed through statutory amendment or an Attorney General's opinion. 
EPA believes that each of these issues is significant from an 
environment and public health as well as from a law enforcement 
perspective.
    Privilege in Criminal Proceedings. State law privileges for 
environmental audit reports and related testimony in criminal 
proceedings impair the ability of prosecutors to investigate and obtain 
sufficient evidence to prove criminal conduct. To preserve Colorado's 
ability to bring appropriate action against the most egregious 
violators and to assess criminal penalties, as required by 40 CFR 
Section 123.27(a)(3)(ii) and (iii), these privileges must be eliminated 
in criminal proceedings.
    Information Gathering Authority. States administering NPDES 
programs must have adequate authority to investigate compliance with 
any NPDES program requirement and to verify the accuracy of self-
reported data or other information concerning possible violations, 
whether this is through copying records, inspecting facilities, or 
monitoring effluents. (See 40 CFR Sections 123.26(b) and (c).) The 
ability to investigate compliance and obtain data rapidly is especially 
critical for situations that may pose an imminent and substantial 
endangerment to human health and the environment. To assure that 
Colorado has such authority, S.B. 94-139 must be amended to clarify 
that its privileges do not apply to underlying facts in an audit 
report, especially regarding effluent data (whether from permitted or 
unpermitted discharges), and that information needed to support an 
order for emergency relief must be accessible without resort to the in 
camera process.
    Public Participation and Access to Information. Federal law 
applicable to the authorization of state NPDES programs requires that 
the public have access to information and be able to report violations. 
(See 33 U.S.C. Section 1318(b) and 40 CFR Sections 123.26(b)(3) and 
(b)(4).) This is consistent with Congressional intent that citizen 
plaintiffs play a role in enforcing environmental laws. Colorado must 
amend its audit law to make it clear that it does not impair public 
access to information that would otherwise be available under State or 
Federal law. Colorado must also eliminate the sanctions against 
disclosure and the prohibition on testimony contained in the audit law 
so as not to impair or chill public reporting of violations.
    Penalty Immunities. Colorado's November 18, 1997 letter states that 
Colorado has authority to assess penalties for all violations of NPDES 
permits and for violations or orders issued by the Colorado Water 
Quality Control Division. However, States administering NPDES programs 
must have the authority to assess civil and criminal penalties not only 
for these two classes of violation, but for all violations described in 
40 CFR Section 123.27(a)(3). Colorado's law must be amended to comply 
with this regulation. It is especially critical that Colorado be able 
to obtain penalties for violations that are due to criminal negligence, 
that result in economic benefit to the violator, that cause serious 
harm, or that pose an imminent and substantial endangerment to the 
public health or the environment.
    Other states, including Utah, Michigan, and Texas, were faced with 
similar legal issues with respect to their state audit laws and, with 
technical assistance from EPA staff, enacted statutory amendments to 
resolve those issues. EPA staff are also available to provide technical 
assistance to State of Colorado staff to ensure that Colorado's 
environmental programs meet pertinent legal requirements.
    As noted above, EPA has received a response only to its letter 
pertaining to Colorado's NPDES program. Although today's letter focuses 
on the NPDES program requirements, similar legal requirements apply to 
other environmental programs. Depending on Colorado's future 
response(s) regarding the effect of S.B. 94-139 on other EPA-approved 
environmental programs, there may be a need for additional statutory 
changes and/or Attorney General's opinions.
    We hope that we can work constructively to address these issues. If 
you have any questions or comments, please do not hesitate to call 
Steve Herman at 202-564-2440 or Bill Yellowtail at 303-312-6308. We 
would also encourage your staff to contact Kerrigan G. Clough, 
Assistant Regional Administrator (312-6241) or, for legal matters, 
Thomas A. Speicher, Regional Counsel, Region VIII (312-7100). Thank you 
for your attention to this matter.
            Sincerely,
                                   Steven A. Herman,
                                       Assistant Administrator,    
                                          Office of Enforcement and
                                              Compliance Assurance.

                                   William P. Yellowtail,
                                        Regional Administrator,    
                                                   EPA Region VIII.
                                 ______
                                 

            [From The Denver Post, Monday, February 2, 1998]

                          Who Watches the EPA?

    The Environmental Protection Agency, spurred on by employee groups 
and the Sierra Club and other environmental groups, has picked a fight 
with the State of Colorado that we hope it eventually loses.
    The EPA, in a Jan. 28 letter to Gov. Roy Romer, says the agency 
wants several major modifications in the State law that allows firms to 
perform voluntary environmental audits and institute appropriate 
cleanup steps, all the while protecting themselves from penalties that 
otherwise might be incurred.
    The 1994 law contains a legislative declaration that the 
``environment is enhanced by the public's voluntary compliance with 
environmental laws and that the public will benefit from incentives to 
identify and remedy environmental compliance issues.''
    Since then, according to State officials, there have been 28 such 
audits, 19 of them involving air pollution laws. Immunity has been 
granted in just 18 of the cases, with five still pending.
    While this record was being compiled, the EPA has mounted what can 
only be called a nationwide campaign to rewrite or repeal all voluntary 
audit laws in the 21 states that have them and to prevent their passage 
in the remaining states.
    The agency has so far managed to get modest modifications in three 
states: Michigan, Utah and Texas.
    Meanwhile, Congress in its most recent budget bill instructed the 
EPA to work with States to allow implementation of self-audit laws. 
House Republicans say they will offer federal environmental self-audit 
legislation again this year, a measure the Clinton administration 
opposes.
    Thus the stage is set for a three-way fight between the federal 
agency, Congress and the various States. A number of legal experts 
believe the issue of State authority will eventually reach the U.S. 
Supreme Court.
    So what should be done in the interim? In our view, nothing. The 
EPA doesn't have a good argument for changing the Colorado law. It 
wants revisions that would ultimately undermine--not to say eliminate--
the law's usefulness. The Colorado Department of Public Health and 
Environment is therefore right to resist.
    As for the Sierra Club and similar groups, it should be noted that 
they are not disinterested scholars on theses issues. Under federal law 
these groups currently enjoy the right to file third-party lawsuits and 
have the Government pay their legal fees, even where the regulators and 
the affected firms have reached enforcement agreements. Naturally, this 
power is threatened by laws, such as Colorado's, that encourage a level 
of privacy and voluntary compliance.

    Senator Allard. I would just say, first of all, in regard 
to Don Barry's appointment and everything, I do plan to support 
him on the floor and support him out of committee. We have had 
a discussion about some issues that were in Colorado, and I was 
pleased by the fact that he seems to be sensitive to a lot of 
these local issues and to property rights, and as mentioned by 
Senator Wyden, sensitive to trying to bring some definite 
closure so that when people deal with the agency, they have 
some sense that things will be carried forward and their 
efforts will not be a waste of time.
    So I just would like to say briefly that we did discuss the 
Lakewood Pipeline; we talked about the South Platte agreement, 
and the fact that we would hope that neither one of the 
processes run out of control, and that some common sense be 
brought to it. And the Colorado Fish Recovery Program, which 
again is a program that has been out there for some time--as a 
State legislator in Colorado, I know we appropriated millions 
of dollars to it, and I know the Federal Government has spent a 
lot of money on this. I think there comes a point in time when 
we need to ask the question: after all the money that we've put 
in on the species recovery of that program, what is going to be 
the end result? Can the people who have been cooperating with 
the agency to try to assure that we have a favorable 
conclusion, are we actually going to have a favorable 
conclusion, as everybody has anticipated?
    And maybe you have a comment or two in regard to that.
    Mr. Barry. First of all just let me mention, on the 
Lakewood Pipeline, I think--from what I have heard 
preliminarily--and this is still subject to a final briefing--
that you may have put your finger once again on a problem that 
needs to be corrected. We are still pursuing that issue 
further, but preliminary reports suggest that you may have once 
again discovered an implementation problem that we need to 
correct.
    With regards to the amount of money that has been put into 
the Colorado Fish Recovery Program and what people can expect 
from it, I think one thing that it has helped provide is some 
certainty for the States and the water users that are 
participating in that program. The Fish and Wildlife Service is 
basically using the mutually agreed-upon recovery measures as 
the yardstick to use in section 7 consultations. The water 
users themselves have helped define the end results of the 
consultation process, and I think that helps them a lot.
    Senator Allard. OK. And I've gotten your assurance that you 
will continue to work with local governments, particularly in 
relation to things like the Rimrock Run. I know that one 
probably went over the top of some other people; it went 
directly to the Secretary of the Interior on that issue.
    But what I would ask is, keep a real interest and kind of 
an ear toward local issues and local concerns.
    And then finally, just a brief question. Would you care to 
comment on the Endangered Species Act that we have reported out 
of committee?
    Mr. Barry. Well, I think Jamie Clark, the Director of the 
Fish and Wildlife Service, probably said it best when she 
testified on behalf of the Administration and indicated that we 
support the bill as it was in front of the committee, going 
into the markup. It is still the position of the Administration 
at this point that we will continue to support that bill. Of 
course, that's always subject to any amendments that would 
ultimately come up on the floor. We think that an awful lot of 
hard work has gone into this bill. There are people on all 
sides of the debate who see things that they wish were in the 
bill that are not in the bill. But I think it is a very solid, 
serious piece of work that will ultimately enhance the 
conservation of endangered and threatened species, and I think 
it's the best bill that we can get that will clear both Houses 
and be signed by the President.
    Senator Allard. Thank you.
    I yield back the balance of my time, Mr. Chairman.
    Senator Chafee. Thank you very much, Senator.
    We thank you very much, Mr. Barry. We appreciate your being 
here.
    Senator Chafee. Now, will Sallyanne Harper please come 
forward? She is nominated by the President to be the Chief 
Financial Officer of the Environmental Protection Agency.
    We welcome you, Ms. Harper.
    Ms. Harper and I had an opportunity to meet beforehand, and 
I find that she's an excellent candidate. Regrettably, I have 
to be at the Majority Leader's office on another matter of some 
import, so I would ask if Senator Allard would be kind enough 
to preside.
    They will conduct this hearing, and obviously I will review 
the record on it. What I hope to do is to move both of these 
nominations along as fast as we can.
    So I thank you very much. I will ask you just two 
obligatory questions, Ms. Harper, before I turn it over.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Ms. Harper. I am.
    Senator Chafee. Boy, you would really throw this thing into 
chaos if you said no.
    [Laughter.]
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Ms. Harper. I do not.
    Senator Chafee. All right, fine.
    Now, I apologize that I cannot stay, and I want to thank 
Senator Allard very much for taking over. Thank you.
    Senator Allard [assuming the chair]. Thank you again, Ms. 
Harper. I would like to welcome you to the committee. It's good 
to have you here this afternoon.
    I did have some issues that I wanted to bring up with you 
while you are here, and I want you to understand that these 
issues probably have more to do with EPA in general than you 
specifically. But I do feel it's very important, because the 
issue that I'm going to bring up is impacting the whole State 
of Colorado; in fact, potentially, it may impact some 21 
States. It has sort of become a rallying cry for the people of 
Colorado and the legislature, and at least one of the major 
papers has written an article, and this is the issue of self-
audits. I don't know how familiar you are with self-audits, but 
I hope that perhaps maybe my staff can get together with some 
representatives of EPA, and maybe yourself, and talk about 
this.
    Personally, I am not going to object to your going out of 
the committee; I'm going to support you getting out of the 
committee. But until the State of Colorado gets a better 
response from the Environmental Protection Agency than what 
we've gotten now because of the self-audit issue, I feel 
compelled that I'm going to have to put your nomination on hold 
when it comes to the floor of the Senate. The only reason we're 
putting it on there is so that we can get a response from the 
Environmental Protection Agency and the various parties 
involved to the self-audit issue in the State of Colorado. They 
did give us a response back, but it was rather dictatorial. And 
in the last budget that we had, we had a provision in there 
that instructed the Environmental Protection Agency to 
cooperate with the States in implementing a self-audit program. 
The tone of this letter was not one of cooperation; it was one 
of mandates.
    So our office is reviewing the rule and regulatory process. 
We are reviewing what it actually states in law; if there are 
provisions in the law, obviously, we want EPA to enforce them. 
If there are regulations that have been implemented without the 
support of the law, passed through the Congress, then we would 
like to address those issues.
    Senator Baucus. Mr. Chairman, may I ask you how long you're 
going to take here? This is a confirmation hearing.
    Senator Allard. I recognize the Senator from Montana.
    It is, but it's important. I just would point out that it's 
important to her nomination, because when she goes to the floor 
there's going to be a hold put on it, and I want her to 
understand what is behind it, and that it is something that can 
probably be resolved easily. I wouldn't be overly concerned 
about it, but the representatives from the Environmental 
Protection Agency need to get in touch with our office.
    And it may very well affect your State, Senator. Colorado 
is one of the first States, and we're actually talking about 
the implementation of the law.
    So I would just say in conclusion that we just want to get 
this resolved as soon as possible, and with a little bit of 
communication between our office and your boss, I think we can 
get it resolved.
    Now I would recognize the Senator from Montana.
    Senator Baucus. Mr. Chairman, I was asking you what you 
intend to do here, if you intend to continue to pursue this 
matter here with the nominee, or whether you plan to take it up 
at some other time.
    I asked the question because I don't think that the nominee 
is prepared to deal with this issue.
    Senator Allard. That's why I didn't ask her the question.
    Senator Baucus. So if I might finish, Mr. Chairman, I just 
wondered what your intentions are. I think we shouldn't put a 
hold--nor should anybody, frankly--on her nomination on the 
Senate floor because this position needs to be filled. She 
needs to do her job. There are various ways to communicate, and 
I know you just communicated with EPA; I'm sure they're going 
to get the message, and I was just asking again whether you 
intend to pursue this matter here or not. I asked the question 
because she's not prepared to deal with the subject.
    Senator Allard. Well, I didn't expect her to be prepared to 
deal with the subject, but I wanted her to understand the 
process and some of the dynamics. I wanted to be up front and 
honest with her so that she would know exactly what was 
happening as far as our office is concerned. I don't think it's 
an insurmountable problem. It may be a slight delay; it depends 
on how quickly the Environmental Protection Agency responds. If 
they respond in a timely manner, then we can quickly move on. I 
understand the problem with these kinds of vacancies, and for 
that reason I would hope that the Environmental Protection 
Agency would respond quickly.
    Now I would go ahead and yield back to the Senator from 
Montana. I think we can go ahead with the hearing process, and 
if you would have any questions or comments, I would recognize 
you for them.
    Senator Baucus. Well, Mr. Chairman, I don't want to make a 
big deal out of this. I'm just asking a simple question for 
which I don't think I've received an answer yet.
    Do you intend to pursue this here, or not?
    Senator Allard. No.
    Senator Baucus. Thank you.
    Senator Allard. The Senator from Montana is recognized.
    Senator Baucus. I have no statement, except, let's get her 
confirmed.
    Senator Allard. OK.
    Do you have a statement for the committee?
    Ms. Harper. I do, Mr. Chairman.
    Senator Allard. OK. I recognize you.

STATEMENT OF SALLYANNE HARPER, NOMINATED BY THE PRESIDENT TO BE 
    CHIEF FINANCIAL OFFICER, ENVIRONMENTAL PROTECTION AGENCY

    Ms. Harper. Thank you, Mr. Chairman. Thank you, Senator 
Baucus. Good afternoon, Mr. Chairman and members of the 
committee.
    It is a great honor to be here today as the President's and 
Administrator Browner's nominee as the EPA's Chief Financial 
Officer. If confirmed, I would welcome this opportunity to 
serve the Administration and the American people to the best of 
my ability.
    As a member of the Senior Executive Service, I have been 
privileged to serve in senior career Civil Service positions 
relating to financial management under three EPA 
Administrators. Nevertheless, I can say that the position for 
which I have been nominated presents a unique and exciting 
challenge in this time of fundamental change at the 
Environmental Protection Agency.
    With your support, our environmental mission has been 
reaffirmed and reinvigorated, and there is a strong focus on 
results-oriented resource and financial management.
    The American people expect the highest quality and 
integrity in the use and management of their tax dollars. I 
share these expectations, and if confirmed, I will use all of 
my skill and energy to meet them. I would like to present you 
with a brief summary of the principles that will guide me if 
the Senate chooses to confirm me as the Chief Financial 
Officer.
    I and my colleagues at EPA are driven by a strong personal 
commitment to a clean and healthy environment. At the same 
time, having dedicated my professional career to fiscal 
resource management, I firmly believe that the mission of the 
agency can only be accomplished in an atmosphere of fiscal 
responsibility and good management. My goal since being 
appointed the Acting Chief Financial Officer in March 1996, and 
a goal implicit in such statutes as the Government Performance 
and Results Act and the Chief Financial Officers Act, has been 
and will continue to be to enhance EPA's ability to reach its 
environmental objectives through the most effective planning 
and resource management.
    I will also work to ensure that the American public and 
Congress have access to clear and comprehensive information on 
EPA's financial stewardship and on the effectiveness of the 
agency's programs, and I recognize that the most effective way 
for us to accomplish our environmental mission is through joint 
action with our State partners.
    The management challenge at EPA extends well beyond 
resource management. The agency must evaluate every aspect of 
its work to measure efforts against results. Are we spending 
scarce dollars to our best advantage and achieving meaningful 
and measurable improvements in environmental quality? Can we 
show the American public that we are meeting our environmental 
challenges and public health threats efficiently and 
effectively? In short, we are being challenged to manage 
smartly against our bottom line, which is the environmental 
quality for the people of this country.
    To this end, I am deeply committed to the challenge of 
continuing the development of a comprehensive strategic 
planning, budgeting, analysis, and accountability program at 
the Environmental Protection Agency. I believe we are on track 
and would like to present some of the highlights of our work to 
date in these areas.
    In September of last year we delivered to you the 
Environmental Protection Agency's Strategic Plan, as required 
under the Government Performance and Results Act. Through the 
process of developing this Plan, the agency, aided by the view 
of its partners and stakeholders, engaged in an intensive 
evaluation of what we would like our work to have achieved 5 
years from now.
    We have also made significant strides in the process of 
aligning our budget structure with the strategic planning 
elements. This will aid all participants in the budget process, 
both in the Administration and in the Congress, in future years 
as we approach the Results Act vision of clear linkages between 
environmental results and our annual budget decisions.
    We have begun to address the internal challenge of 
developing an accountability system that moves us away from 
counting program outputs toward the measurements of 
environmental outcomes. This is a daunting challenge, but the 
cooperation of agency managers and the support we are receiving 
from State representatives allows me to be confident of the 
success.
    All of these activities, guided by the Chief Financial 
Officer, must continue if we are to effect the major 
redirection for performance-based management envisioned by the 
Results Act. I pledge to continue these efforts.
    Should I be confirmed, I look forward to working with the 
Administrator, with this committee, and other Members of 
Congress, the broad constituency served by EPA, to ensure the 
financial resources entrusted to us are managed wisely.
    I thank you.
    Senator Allard. I thank you, Ms. Harper, for your 
statement. We will now proceed to the members of the committee 
to see if we have any questions.
    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Harper, I understand your family is with you.
    Ms. Harper. Yes, Senator, they are.
    Senator Baucus. Could you introduce all of them, please? I 
understand there are quite a few.
    Ms. Harper. I have stacked the hearing room, sir.
    Senator Baucus. Well, we would like to see them. If you 
could just introduce them and have them stand. This is a big 
day for you and for them.
    Ms. Harper. Thank you, Senator.
    This is my husband, Francis Nathans.
    Senator Baucus. Francis.
    Ms. Harper. My sister, Dr. Harper-Petrozza.
    My father, Thomas Harper.
    My mother, Frances McCarron-Harper.
    My sister, Mary.
    And in the back row, my brother-in-law, Paul Kelly; my 
sister, Kate Harper; and Kate's father-in-law, Paul Kelly.
    Senator Baucus. And on the other side of the room?
    [Laughter.]
    Ms. Harper. I think that's my family, sir.
    Senator Baucus. Ms. Harper, there is just one question that 
I have, and it's on the minds--the general question--of a lot 
of Americans, and that's this new term that I learned the other 
day, Y2K, otherwise known as converging through the Year 2000 a 
la computers.
    Can you tell us a little bit about what you're doing at EPA 
and what EPA is doing and how EPA is going to solve that 
problem, so that at least we don't have that headache on our 
hands when the clock ticks?
    Ms. Harper. Thank you, Senator.
    EPA has been very aggressive in trying to make sure that we 
have our Y2K, our Year 2000 conversion problems, taken care of 
long before we hit the Year 2000. We have 61 mission-critical 
systems that are currently under very aggressive review, 
including the financial systems and all of the major 
programmatic systems. There are second tier systems, including 
such things as LANs, that will follow behind the mission-
critical systems, but we are currently on track to meet OMB's 
revised government-wide milestones so that our systems will be 
in compliance.
    Senator Baucus. So you think you will have things all 
snapped in place by the bewitching hour?
    Ms. Harper. It is a gamble, Senator. At this time we are on 
track to do that. There are some systems that we are worried 
about, but we are monitoring them very, very closely.
    Senator Baucus. OK. I would just advise, if you have any 
problems, you will go to the people within the EPA 
administration, and also work with this committee, because we 
want to help you make sure you get that solved. It's a huge 
problem. Can you give us a rough estimate of how much EPA is 
going to have to spend to update?
    Ms. Harper. Senator, I would be happy to provide that for 
the record. I don't have it off the top of my head.
    [Information to be supplied follows:]
    EPA's funding is as follows to address the problems 
associated with ensuring that its critical computer systems are 
in full compliance with the Year 2000 initiative:

                                                                        
                                                            [In millions
                        Fiscal year                          of dollars]
                                                                        
1997......................................................          $5.3
1998......................................................          13.0
1999......................................................           6.1
2000......................................................           1.0
2001......................................................           1.0
                                                           -------------
    Total.................................................         $26.4
                                                                        

    Senator Baucus. I might tell you, and for those who are 
interested, the IRS is going to have to spend about $900 
million on that problem alone, in addition to all the other 
computer problems that that agency has. It's a tremendous 
problem, and I just urge you to do what you have to do. We have 
lots of problems, and that's one we just don't want to have to 
deal with also.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    I just have a couple questions, along the same lines as the 
computer question from Senator Baucus.
    Is the Environmental Protection Agency--do you share 
computers with other agencies? Or is your system a stand-alone 
system just within the agency itself?
    Ms. Harper. Mr. Chairman, we have a number of different 
systems within the agency. We share our supercomputer, for 
instance, with other agencies and departments that have an 
interest and a need in using that. We also receive data from 
the States, the local governments, and other Federal agencies, 
and exchange data with them. So I think it is less an issue 
that we share systems than that we share data that is moving in 
and through those systems.
    Senator Allard. I guess that was my question, whether you 
had a compatible system with the States, if you are working 
with them, or the various Regional Offices.
    Do you have a compatible system? Do you share data with the 
Department of the Interior? Do you share data with the 
Agriculture Department? Or maybe some health agencies? Do you 
share data, and do you have a compatible computer system, or is 
it all pretty much on their own system and you have to use e-
mail through--this is not a good example, but some universal e-
mail carrier like America Online or something like that?
    Ms. Harper. Mr. Chairman, the expert in this area is our 
Chief Information Officer. To my knowledge, we do share data, 
and we have systems that are capable of transmitting data back 
and forth to other systems. Our Office of Reinvention just last 
month met with the States to try to work out better ways to use 
information, to share data, to not duplicate, and to reduce the 
burden that we sometimes put on our State partners in trying to 
get information. They have, I believe, worked out an agreement 
on the best way to proceed, so we are always looking for better 
ways to share information and data.
    Senator Allard. The final question. How do you plan on 
keeping yourself informed as to new legislative requirements 
that may be placed upon you in your duties?
    Ms. Harper. There are a number of ways, Mr. Chairman, that 
I will be keeping informed of new legislation and new 
legislative requirements.
    Our Office of Congressional and Intergovernmental Relations 
is an excellent source of information, and we work quite 
closely together, in addition to which the Chief Financial 
Officers' Council has a legislative committee, of which I am a 
member, and we track very carefully those pieces of legislation 
that would, for instance, affect the chief financial officers, 
the financial or budgetary or planning legislation.
    Senator Allard. Thank you.
    Do we have any other questions from any other members of 
the committee?
    Senator Baucus. Mr. Chairman, I just wanted to ask Ms. 
Harper----
    Senator Allard. The Senator from Montana is recognized.
    Senator Baucus [continuing]. The same question I asked the 
previous witness.
    How do you want to be remembered? What is your legacy?
    Ms. Harper. Senator, I would like my legacy to be that when 
I have left the Environmental Protection Agency, we have 
finally established a planning, budgeting, analysis, and 
accountability system where we know where we're going; we 
budget our resources to that plan; our resource allocation 
decisions are based on prioritization along known and effective 
guidelines, and that we hold ourselves accountable for 
achieving the environmental results that the American public 
expects from us.
    Senator Baucus. Well, I can tell you, you are approaching 
it with great enthusiasm.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you for appearing here today, Ms. 
Harper.
    If there are no further questions, the committee is 
adjourned.
    [Whereupon, at 3:30 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional material submitted for the record follows:]
 Statement of Donald J. Barry, Nominated to be Assistant Secretary for 
      Fish and Wildlife and Parks, U.S. Department of the Interior
    Mr. Chairman, members of the committee: Many people who go through 
the nomination process before this committee state how honored and 
humbled they feel to be nominated for higher office by the President. 
No matter how frequently you may have heard this statement from other 
nominees, it nevertheless is true.
    To be nominated as the Assistant Secretary for Fish and Wildlife 
and Parks is the greatest honor I have been accorded in a long career 
of public service. It is also the greatest challenge and responsibility 
I have been asked to carry since arriving in Washington 23 years ago. I 
would like to express my deepest thanks to President Clinton and 
Secretary Babbitt for placing their confidence and trust in my ability 
to fulfill the responsibilities of Assistant Secretary.
    When I reflect back upon the major forces or influences in my life 
that have helped bring me before you today, three things stand out in 
importance.
    First and foremost, has been the influence of my parents. Highly 
educated and completely devoted to each other and the four children 
that they raised, my parents taught me the importance of many things in 
life, including the need for honesty and ethics in dealing with people, 
the virtue of hard work and doing your best, and the value of public 
service. My parents also instilled in me at an early age a deep 
appreciation for the outdoors and the beauty of nature. Whether it was 
camping in Colorado, rock collecting in the Dakotas, bird watching in 
Wisconsin, or canoeing in Minnesota's Boundary Waters, our family 
outdoor summer vacations stimulated my earliest thinking about a career 
in conservation. I admire my parents for many, many things, but most of 
all, I admire--and thank them--for instilling in me a life-long love of 
the natural areas of this country, of wild things and wild places.
    The second major influence in my life was growing up in a small 
town in rural America. A former Congressman once lamented that the 
biggest problem with Washington, DC was that people stayed here too 
long, and ended up confusing themselves with the rest of the monuments. 
Although I have lived in Washington, DC for almost a quarter of a 
century, I believe that I have never lost touch with where I came from, 
or where my roots began. I grew up in a small agricultural community in 
southern Wisconsin where hard work was a way of life, honesty was 
considered a mandatory virtue, and ``public service'' was considered 
your civic duty and not the 13 letter equivalent of a four letter word. 
In a small rural community, you quickly learn the importance of being 
straight with people--of keeping your word.
    The third major influence in my life was the Boy Scouts of America. 
ginning at age 13, I spent nine of the best summers of my life working 
on the staff of a Boy Scout camp in northern Illinois. Advancing from 
the position of nature director to ultimately the program director for 
the entire camp, my days in scouting enhanced my love of the outdoors 
and taught me early lessons of leadership and the importance of a life 
of public service.
    These three influences--my parents, growing up in a small town in 
the Midwest, and the Boy Scouts of America, have all contributed 
significantly to what I stand for and believe in today.
    It is my view that the position of Assistant Secretary for Fish and 
Wildlife and Parks is one of the most important positions in the 
Federal Government today. While other positions may make greater 
contributions in important areas such as public health or education, no 
other governmental portfolio carries a greater trust responsibility for 
the American people than one involving the conservation and enhancement 
of this Nation's wildlife, cultural, historic and park resources.
    At times this daunting task seems beyond the capabilities of any 
one person. As obvious as my own shortcomings may be, I nonetheless 
believe there are four reasons why you should favorably consider my 
nomination for the position of Assistant Secretary.
    To begin with, I offer you my experience. I believe that my years 
in Washington, DC have provided me with a clear understanding of the 
varying roles and responsibilities of the office of Assistant Secretary 
for Fish and Wildlife and Parks. I have either worked in, or worked 
with, this particular office for almost a quarter of a century. From 
1975 to 1986, I provided legal advice to the Assistant Secretary for 
Fish and Wildlife and Parks through various positions in the Office of 
the Solicitor at the Department of the Interior. Since my return to the 
Department as a political appointee in May 1993, I have alternately 
served as the Counselor to the Assistant Secretary, the Deputy 
Assistant Secretary, and the Acting Assistant Secretary. Moreover, 
during the 6 years that I worked for the House of Representatives, I 
was responsible for the Merchant Marine and Fisheries Committee's 
Congressional oversight of the Assistant Secretary's office. It, thus, 
could be said that I have interacted with past Assistant Secretaries 
for Fish and Wildlife and Parks from a variety of angles. I, believe 
therefore, that I have the practical experience and insight that one 
would want in an Assistant Secretary.
    In addition to my familiarity with the office of Assistant 
Secretary, I have also worked for over 20 years with the two agencies 
that this office oversees: the U.S. Fish and Wildlife Service and the 
National Park Service. I served for 12 years as an attorney for the 
Fish and Wildlife Service, including 6 years as that agency's Chief 
Counsel. As a result of this prior professional relationship, I have 
long-standing personal ties with every Regional Director in the 
Service, and most of the agency's Field Supervisors as well. Moreover, 
I have worked closely with the Director of the Fish and Wildlife 
Service, Jamie Clark, for many years, and believe that we have 
established a solid record of solving problems together.
    While my past involvement with the National Park Service may not be 
as extensive as with the Fish and Wildlife Service, I nevertheless am 
familiar with the key programs of the Park Service and have established 
an excellent working relationship with the Director of that agency, Bob 
Stanton. I also have long-standing working relationships with many of 
the senior leaders in the Park Service. For example, I first met two of 
the Park Service's current regional directors while working on park 
issues for the Department during the passage of the Alaska National 
Interest Lands Conservation Act (ANILCA) in the late 1970's. Thus, I am 
no stranger to the policies and programs of the National Park Service.
    The second reason I would offer for you to consider supporting my 
nomination is my long record of bipartisan collaboration in preserving 
America's natural resources. Mr. Chairman, I have never seen a 
Democratic flock of geese or a Republican sunset over Yosemite Valley. 
Labels of exclusive political ownership may be the bread and butter for 
Washington pundits, but they are contrary to the history of 
conservation in this country. Our greatest gains in preserving our 
natural, cultural, and historical legacy have occurred when men and 
women of both political parties have set aside their differences and 
forged a common ground on behalf of the American people. There are 
plenty of partisan political issues to be divided over--the 
preservation of our parks and wildlife resources should not be among 
them.
    The third reason I hope that you would favorably consider my 
nomination is that I appreciate the special role reserved for Congress 
by the Constitution in the development and implementation of this 
country's natural resource policies. Having spent 6 years as a general 
counsel for a Committee Chairman in the House of Representatives, I 
understand first-hand the importance of balanced congressional 
oversight of the administrative implementation of our laws. So long as 
the inquiries are fair, I will always welcome the input from Congress 
in assessing how well we are doing. For in the end, we are all 
accountable to the American people, and only by working together, can 
Congress and the executive branch enhance the natural and cultural 
heritage of this country.
    The final reason you should consider supporting my nomination is my 
personal approach to solving problems. Quite frankly, easy problems 
rarely work their way up the food chain to the desk of an Assistant 
Secretary. All too often the problems are complex and messy, involving 
large doses of conflicting facts and inflexible, dug-in opponents, each 
convinced that the other side is horribly, horribly wrong.
    Unfortunately, we seem to be losing our ability in this country to 
respectfully disagree with one another without being disagreeable. Our 
society seems to be shouting more and listening less. I believe that 
the reverse approach is necessary to be an effective Assistant 
Secretary. In order to fairly sort out conflicting facts and points of 
view, an Assistant Secretary should be accessible to all parties, and 
be a particularly good listener. Judge Learned Hand once noted that 
``The spirit of liberty is the spirit that is not too sure it is 
right.'' That spirit is jeopardized by too much certitude, by too much 
righteousness, and by an unwillingness or incapacity to stand in 
another's shoes.
    I pride myself on being a good listener and of being open and 
accessible to different points of view. The fact that my candidacy has 
been endorsed by the leadership of such polar opposites as the 
Wilderness Society and the American Farm Bureau, the Safari Club and 
the Humane Society, and the California League of Conservation Voters 
and the Southern California building industry, will hopefully tell you 
more about my approach to solving problems than my ultimate decisions 
themselves. While many of these organizations will tell you that they 
disagree with some of my positions, they will also tell you that I am 
fair, I am balanced, and I listen carefully to what they say. For in 
the end, I am neither an ideologue from the right nor from the left--I 
am simply from Wisconsin.
    Winston Churchill once stated that ``we make a living by what we 
get, we make a life by what we give.'' As I come before you today, I am 
asking you to give me another opportunity to serve the American people. 
I am proud to be associated with two of the finest agencies in the 
Federal Government, the National Park Service and the U.S. Fish and 
Wildlife Service. I am honored to work on a daily basis with their 
dedicated employees and I intend to be an advocate for our national 
parks and this country's fish and wildlife resources. Anything less, in 
my mind, would disqualify me from this post.
    President John F. Kennedy in his inaugural address distilled the 
essence of public service to its purest form. He said ``I am certain 
after the dust of centuries has passed over our cities, we, too, will 
be remembered not for victories or defeats in battle or in politics, 
but for our contribution to the human spirit.'' With your confidence 
and support, I pledge to work diligently to enhance the park and 
wildlife resources of this country. In this small way, I too, may 
enhance the human spirit of this nation. Thank you.
                                 ______
                                 
               Biographical Statement for Donald J. Barry
    Over the past 23 years, Don Barry has served under or worked with 
eight different Secretaries of the Interior, Members of Congress and 
non-governmental organizations on matters that directly affect the 
Office for the Assistant Secretary for Fish and Wildlife and Parks. 
Through various positions, he has worked with a wide range of public 
and private entities to solve natural resource problems. For the 
reasons that follow, he has the experience to serve as the Assistant 
Secretary for Fish and Wildlife and Parks.
    Executive Branch Experience--Don has worked for over 15 years 
within the Department of the Interior in a variety of positions that 
directly relate to the position of Assistant Secretary, including 
serving as the Acting Assistant Secretary, Deputy Assistant Secretary, 
Counselor to the Assistant Secretary and the Assistant Solicitor (Chief 
Counsel) to the U.S. Fish and Wildlife Service.
    Legislative Branch Experience--Don worked for over 6 years for the 
Chairman of the House Merchant Marine and Fisheries Committee as the 
General Counsel for Fisheries and Wildlife. In this capacity, he worked 
routinely with the Assistant Secretary for Fish and Wildlife and Parks 
and the Director of the U.S. Fish and Wildlife Service. He was 
responsible for all legislative matters involving endangered species, 
marine mammals, the National Wildlife Refuge System, wetlands, 
migratory birds, water and energy development, and international 
wildlife agreements. He also worked collaboratively with the House and 
Senate Natural Resource Committees on numerous land and water 
management initiatives, including those affecting the National Park 
System.
    Managerial Competency--Don has over 18 years of managerial 
experience in both the government and as a Vice President with the 
World Wildlife Fund. As Assistant Solicitor, he received six straight 
``Outstanding'' management performance ratings and received five 
Special Achievement Awards for superior legal services.
    Natural Resource Expertise--Don has experience in all aspects of 
natural resource law and policy, including fish and wildlife 
conservation, national parks and wildlife refuges, public lands, energy 
resources, Native American rights, Alaskan lands, coastal and marine 
resources and wetlands. For example, he has worked on Endangered 
Species Act matters for 22 of the 23 years that the Act has been in 
existence, having helped draft or develop every major ESA regulation 
and policy to date. He has also participated in every ESA 
Reauthorization since passage of the original Act. In addition, he has 
played a significant role in the drafting and implementation of the 
Alaska Lands Act and the negotiation of various international 
conservation agreements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Responses by Donald J. Barry to Additional Questions from Senator 
                                 Chafee
    Question 1. If you are confirmed as Assistant Secretary, what are 
your top priorities for the Fish and Wildlife Service and the National 
park Service? What legacy do you hope to leave with the Department?
    Answer. If confirmed as Assistant Secretary, the following would be 
among my top priorities for the National Park Service and the U.S. Fish 
and Wildfire Service: focusing on the budget priorities and needs for 
both agencies in order to maximize the fiscal resources available for 
each agency; completing the ESA reauthorization process and finalizing 
all ESA administrative reforms designed to enhance private land owner 
and State and local government support for species conservation; 
assisting in the timely implementation of the National Wildlife Refuge 
System Improvement Act of 1997; resolving bison management and winter 
use controversies in Yellowstone National Park; supporting on-going 
restoration efforts for the Florida Everglades; and resolving past 
controversies surrounding the National Park Service's construction 
program.
    As for the legacy I would care to leave behind upon my departure 
from the position of Assistant Secretary, four items stand out in 
particular:
    (1) I would like to leave in place a more effective endangered 
species conservation program that significantly accelerates species 
recovery efforts on the ground through enhanced support and cooperation 
from private landowners and State and local governments.
    (2) I would like to leave the Fish and Wildlife Service and the 
National Park Service with enhanced fiscal resources to accomplish 
their important missions and with a new generation of leaders in place 
who are open to new approaches and ideas for enhancing the 
effectiveness of their agencies' programs.
    (3) I would like to see strong continued progress in the 
implementation of the Administration's major ecosystem restoration 
projects involving places like the Florida Everglades and the desert 
landscapes of Southern California; and
    (4) I would like to expand within the agencies I oversee the sense 
of enjoyment and pride that used to be associated with government 
employment and public service.

    Question 2. You have extensive experience in implementing the 
Endangered Species Act and in efforts to reauthorize the ESA. Many of 
the recent reforms that you have helped to initiate, including the ``no 
surprises'' policy and the safe harbor agreement, have formed the 
foundation for the bill that we reported out of Committee. How do you 
plan to draw on this experience in your new position?
    Answer. I would work to promote within the Fish and Wildlife 
Service the new emphasis on cooperation and collaboration with private 
landowners which is inherent in both this Administration's ESA 
administrative reforms and the various policy provisions in S. 1180, as 
reported out of the Senate Environment and Public Works Committee. 
Working closely with the Director of the Fish and Wildlife Service, 
Jamie Clark, I would try to ensure that all of these new approaches are 
embraced not only by the Washington and Regional leadership of the 
Service, but by the rank-and-file field biologists as well.
    In addition, the Administration is pleased with the success of the 
ESA administrative reforms we have crafted and implemented. The 
Department of the Interior, working closely with the Department of 
Commerce, will continue to initiate administrative reforms to make the 
Act more effective in conserving vulnerable species and to improve the 
delivery of the Act in a manner that provides flexibility and certainty 
to private landowners. In the next couple of months, we will be 
releasing a new Section 7 Handbook that improves, streamlines, and 
expedites the manner in which we conduct interagency consultations. We 
will be finalizing our No Surprises Rule this month and then completing 
the final Safe Harbor and Candidate Conservation Agreement with 
Assurances Policies in the spring. In addition to making the 
development of new administrative reforms a priority, I look forward to 
continuing to work with the Senate Environment and Public Works 
Committee and the House Resources Committee to reauthorize the ESA.
   Responses by Donald J. Barry to Additional Questions from Senator 
                               Kempthorne
    Question 1. One of the most important aspects of the Endangered 
Species Recovery Act of 1997 is Section 10 Habitat Conservation 
Planning. Lately, some private property owners who would be otherwise 
interested in HCPs have expressed reservations based upon the standards 
which have been applied by the Administration representatives. They 
fear that the use of a recovery standard in HCPs will effectively shift 
the burden of recovery to private property owners. Do you agree with me 
that imposing a recovery standard burden on HCPs will provide a 
disincentive to private property owners and discourage them from 
conserving important habitat for species?
    Answer. The section 10 process is an important opportunity to 
provide species protection and habitat conservation within the context 
of non-Federal development and land and water use activities. It does 
not explicitly require that every HCP recover listed species, or 
contribute to the recovery objectives outlined in a recovery plan. The 
issuance criteria under section 10 of the Endangered Species Act 
require that the HCP applicant `` will, to the maximum extent 
practicable, minimize and mitigate'' the impacts of any incidental 
taking authorized by a section 10 permit, and that issuance of the 
permit ``will not appreciably reduce the likelihood of the survival and 
recovery of the species in the wild''. Neither the ESA nor its 
implementing regulations demands that every HCP must result in a net 
benefit to or recovery of the affected species.
    Clearly, HCPs may, however, contribute to recovery of covered 
species because of the conservation programs established and the long-
term assurances provided. This is especially true of regional and other 
large-scale HCPs that address all or much of a species' range. The 
Service encourages all HCP applicants to craft their HCP so as to 
contribute to the conservation and recovery of federally listed, 
proposed, and candidate species as well as overall biological 
diversity. Many HCPs do just that.
    Based upon the particular biological facts in a given case, some 
HCPs may have to support a species' recovery. If an HCP covers most or 
the entire range of a species or if it covers a severely depleted 
species, measures that are necessary for the long-term survival of the 
species as well as the eventual recovery must be embraced in the plan. 
In such situations, the biological dividing line between survival and 
recovery may be meaningless.

    Question 2. During our negotiations on the Endangered Species Act, 
we considered the value of using the best science to both list and 
delist species. In the last Interior appropriations bill I inserted 
enough money to provide for a Habitat-based Population Viability 
Analysis for the Grizzly Bear in the Yellowstone Area. It is my sincere 
hope that the results of this study will result in a prompt 
recommendation from the Fish and Wildlife Service to delist the Grizzly 
Bear. Will you please describe progress on the habitat-based PVA and 
give me an idea of how soon we can see delisting of this species?
    Answer. The money made available for a habitat-based population 
viability analysis (PVA) was targeted for the Bitterroot ecosystem per 
language in the Senate Appropriations Committee report. Presently, 
Region 6 is negotiating a contract with a recognized expert in 
population viability analysis. We expect to complete the PVA this 
fiscal year, prior to completion of the final Environmental Impact 
Statement and Record of Decision for grizzly bear recovery in the 
Bitterroot ecosystem.
    The Service believes that it has made significant progress on 
implementing the recovery plan and that the grizzly bear population in 
the Yellowstone Ecosystem is well on its way to recovery; however, not 
all of the biological recovery criteria have been met. In order to 
delist this population, the following recovery items must be completed:
          Completion of habitat-based recovery criteria. This is 
        required by both the grizzly bear recovery plan and litigation 
        settlement provisions. The process is ongoing and expected to 
        be completed by the summer of 1998.
          Completion of Conservation Strategy which will indicate how 
        bears and their habitat will be managed after delisting. The 
        process is ongoing and expected to be completed by December 
        1998.
          Revision of the chapter on the Yellowstone population in the 
        Grizzly Bear Recovery Plan to incorporate a more accurate 
        methodology for estimating the female grizzly population in the 
        Yellowstone ecosystem. The current methodology is very 
        conservative and does not account for unobserved females. This 
        process is ongoing and expected to be completed by December 
        1998.
          Wyoming and Montana need to be able to control human-caused 
        mortality following delisting. U.S. Fish and Wildlife Service 
        representatives have discussed this need with representatives 
        from both States. This is now in the hands of each State.
    Once the above items are accomplished and the Yellowstone 
population of grizzly bears meets all of the biological recovery 
criteria, the U.S. Fish and Wildlife Service will propose delisting as 
promptly as possible.
    The other population of grizzly bears in the lower 48 states are 
not as close to recovery as the Yellowstone population. It is not 
possible to predict when these populations might be ready for 
delisting.

    Question 3. As a result of information obtained at a hearing in 
1995, I included a ``general scientific permit'' in the bill to 
reauthorize the Endangered Species Act. The purpose of the proposed 
changes is to streamline the Service's permitting process by providing 
a qualified organization with a blanket permit for a set period of 
time. The exact language has been dropped from the bill as passed by 
the Environment and Public Works Committee because of a promise from 
the Administration that something can be worked out administratively.
    Can you bring me up to date on progress on the subject of a general 
permit to qualified organizations. Does it appear that an 
administrative solution will be sufficient, and a legislative solution 
will not be required to implement a ``general scientific permit''?
    Answer. S. 1180 includes a provision specifically authorizing the 
issuance of scientific permits which may authorize a single 
transaction, a series of transactions, or a number of activities over a 
specific period of time. In issuing or modifying such a permit, the 
Secretary shall take into consideration the expertise and facilities of 
the permit applicant and, consistent with the conservation of the 
affected species, maximize the efficiency of the permitting process. 
The Fish and Wildlife Service is in full support of this new language 
and is already considering ways to implement these provisions. Senior 
managers of all of the Service's permitting processes have already 
begun their involvement in this effort, since there are issues which 
extend beyond the Endangered Species Act to other U.S. laws which 
regulate taking and trade in wildlife. The Service intends to focus on 
the scientific permitting needs of the Peregrine Fund as a test model 
for this effort. This will result in a comprehensive plan for this new 
approach to permits for scientific purposes or to enhance the 
propagation or survival of listed species. I believe this will 
significantly increase the efficiency of our permitting process and 
lower the burden on permit applicants in ways which will foster the 
conservation of the species, making additional consideration of any 
other legislative changes unnecessary.

    Question 4. I understand that there is an extinction crisis on many 
island habitats around the world, including United States islands. By 
virtue of their geographic isolation, the Hawaiian Islands provide 
homes to many unique forms of plant and animal life. Due to the decline 
of many native species the Hawaiian Islands are now recognized as the 
endangered species capital of the nation. I believe immediate, focused 
recovery efforts like those proposed in S. 1180 are needed to halt the 
imminent extinction of the remaining native Hawaiian flora and fauna. 
In February 1997, Hawaii's Congressional delegation joined a call for 
the formation of a Hawaiian Bird Secretarial Conservation Commission to 
address the problem. What is your response to the request for a 
Secretarial Commission on Hawaiian flora and fauna? Do you think the 
problem is critical in Hawaii? Are there other island habitats under 
the jurisdiction of the United States that would benefit from such a 
Secretarial Commission?
    Answer. There is clearly a need to enhance our efforts to address 
the serious decline of native species on the Hawaiian Islands, and the 
Fish and Wildlife Service is actively considering the Hawaiian 
delegation's proposal to establish a Secretarial Commission or similar 
organization that could function as an umbrella organization capable of 
taking a broad look at the enormous task of setting priorities and 
restoring parts of Hawaii's natural environments, where possible. This 
commission could be established under the auspices of the Endangered 
Species Act and function as a recovery team for Hawaiian ecosystems, 
consisting of both resource professionals and other individuals who 
live in the Hawaiian Islands. The Commission could become a successful 
partnership of public and private entities who share a common concern 
for the welfare of Hawaii's unique flora and fauna.
    It is possible that other islands, such as the Mariana archipelago, 
could also benefit from the establishment of a Secretarial-level team 
or commission. However, we would prefer to focus our efforts first on 
the Hawaiian Islands and explore the concept's viability before 
broadening its application to other Pacific islands.

    Question 5. I understand that you headed the U.S. delegation to the 
tenth Conference of the Parties (COP) to the Convention on 
International Trade in Endangered Species (CITES) in Harare, Zimbabwe. 
I also understand that the U.S. position on several issues were very 
much at odds with other parties to the Convention.
    Would you please describe to us the process that the United States 
went through in preparation of policy options for the 10th COP. I would 
especially like to know what steps you have taken to look into the 
selection of issues, the development of positions, and the manner in 
which issues were negotiated during the COP.
    As a result of your experience at the 10th COP, do you have any 
issues or policies that require the attention of the 105th Congress 
during the reauthorization of the Endangered Species Act?
    Answer. The process of preparing for COP10 began with a Federal 
Register notice in March, 1996, requesting comments and suggestions for 
possible U.S. proposals. Over the next 15 months, the Fish and Wildlife 
Service published six additional Federal Register notices and conducted 
two public meetings in order to get public comments and explain U.S. 
positions for COP10. Final U.S. positions were developed as a result of 
an interagency consultation process involving a number of Federal 
departments and agencies.
    As a result of this process, the United States submitted or co-
sponsored 11 proposals for listing or delisting species. Of these, six 
proposals were approved, and one additional proposal was eventually 
replaced by an alternative to listing proposed by the U.S. and two 
other countries which was then accepted by consensus of the parties. 
Thus, 7 out of the 11 U.S. species proposals were approved by the COP. 
In addition, the U.S. also was involved in a number of successful 
efforts for the adoption of interpretive resolutions, and worked for 
the withdrawal of one resolution which was clearly in contravention of 
the terms of the CITES treaty.
    However, there was one situation at COP10 which was of significant 
concern to me. Two U.S. proposals for listing domestic species were 
opposed by U.S. States and were eventually defeated or withdrawn. A 
third U.S. proposal which came up immediately after the other two also 
eventually had to be withdrawn, even though it was actually supported 
by the States. In each case, the actual or perceived opposition from 
the States was a major factor in the other countries' decisions not to 
support the proposals. This situation was clearly not acceptable, and 
even before COP10 ended I made a commitment to the States present that 
we would take assertive action to give them a much greater role in the 
development of U.S. proposals prior to the next COP. In September 1997, 
I arranged a meeting with the President of the International 
Association of Fish and Wildlife Agencies and other key State leaders 
during the IAFWA Annual Meeting in Scottsdale, AZ. During that meeting, 
we developed an outline of an entirely new relationship with the States 
to make them full partners in our entire CITES process.
    The Fish and Wildlife Service has implemented this concept through 
an agreement with the IAFWA which now allows designated representatives 
of the States to participate in each of the monthly interagency 
meetings where CITES issues are reviewed and where U.S. proposed 
positions will eventually be developed for COP11. Any unresolved issues 
will be brought to the attention of the FWS Director, and if necessary 
to me, well before final decisions are made, so that there will be the 
greatest possible opportunity for development of a consensus position 
with the States on all proposals involving U.S. species.
    In addition, the Fish and Wildlife Service also identified a 
parallel need to give all interested parties a greater voice in the 
development of U.S. positions for COP11. As a result, on January 29, 
1998, the first Federal Register notice requesting initial suggestions 
for U.S. proposals for COP11 was published, 22 months prior to the 
November 1999 anticipated date for COP11. This is 7 months earlier than 
the start of the public process for COP10. This early start will allow 
much more time for public review and comment on all potential 
proposals, and for analysis of these comments to ensure that there is a 
full understanding of the likely consequences of all proposals before 
final decisions are made. The January Federal Register notice also 
identified three early candidates for potential downlisting or 
delisting and one species for listing. All of these contemplated 
actions were reviewed in advance and were strongly supported by the 
States. I believe that these actions to involve the States and all 
other interested parties earlier and much more closely in our CITES 
decisionmaking process will ensure that the United States develops 
well-justified positions for COP11 which will be supported by other 
CITES parties.
    One other major issue at COP10 where the United States did not side 
the majority was the downlisting of African elephants proposed by 
Zimbabwe, Botswana, and Namibia to allow resumption of trade in ivory. 
The United States opposed these proposals, not because of any concerns 
about these countries themselves--all of which have done a good job 
with elephant management--but rather because of our concerns about 
weaknesses in the trade control system after the ivory leaves their 
borders. There is a very real possibility that under current conditions 
any reopening of legal trade could lead to increased poaching and 
illegal trade in other countries lacking the capacity to defend 
themselves against well-armed, well-organized poaching gangs. Other 
CITES parties shared the U.S. concerns to some extent, and the final 
decision to downlist elephants included a number of stringent 
conditions which the CITES Standing Committee must determine have been 
satisfied by March before any trade can take place.
    During the COP, I took great care to express the U.S. position in a 
manner which was fully respectful of the conservation achievements of 
Zimbabwe and the other proponent countries. I also developed a strong 
personal relationship with my counterpart from Zimbabwe, the Deputy 
Minister of Mines, Environment, and Tourism. As a result, we are 
developing a plan for increased cooperation between our two departments 
in the areas of national parks and wildlife management. The Deputy 
Minister has accepted my invitation to come to the United States with 
his key staff some time within the next few months for specific 
discussions about what would be included in this new cooperative 
program and a tour of the training facilities of the Fish and Wildlife 
Service and the National Park Service. This new relationship with 
Zimbabwe would complement assistance which we have provided to all 
three countries from our African Elephant Conservation Fund and an 
ongoing dialog on CITES issues.
    Thus, I do not see any issues pertaining to our CITES process which 
are relevant to the discussion of reauthorization of the Endangered 
Species Act. S. 1180, the Endangered Species Reform Act, reported out 
of the Senate Environment Committee, does not change the CITES process 
and the Administration agrees with this approach.
                                 ______
                                 
                         California State Lands Commission,
                                  Sacramento, CA, February 3, 1998.
Hon. John H. Chafee, Chairman,
Committee on Environment and Public Works,
Washington, DC.
    Dear Senator Chafee: It is our pleasure to endorse Donald J. Barry 
for the position of Assistant Secretary for Fish and Wildlife and 
Parks.
    Mr. Barry has shown great depth in his understanding of the 
Endangered Species Act gained through his 22 years of work in the 
Executive and Legislative branches of government. He gained additional 
expertise in wildlife conservation and private and public land use 
while he was Vice President for U.S. Land and Wildlife with the World 
Wildlife Fund.
    As an example of his ability to turn concept into action, he has 
continued the momentum on a complex intergovernmental, public-private 
project in California to acquire and restore over 1,100 acres of 
wetlands at Bolsa Chica. He has provided the policy direction and has 
committed the Fish and Wildlife staff necessary for the wetland 
restoration.
    It is important to point out that he has been open and frank in his 
communications about Federal policy with State government agencies. 
This is a very refreshing attribute!
            Sincerely,
                                           Robert C. Hight,
                                                 Executive Officer.
                                 ______
                                 
         The Western States Land Commissioners Association,
                                                  February 3, 1998.
Hon. John H. Chafee, Chairman,
Committee on Environment and Public Works Committee,
Washington, DC.
    Dear Senator Chafee: I am pleased to endorse the appointment of 
Donald J. Barry for the position of Assistant Secretary for Fish, 
Wildlife, and Parks of the Department of the Interior.
    As President of the Western States Land Commissioners' Association, 
I have had the opportunity to work with Mr. Barry. We have found him to 
be dedicated and knowledgeable about the issues he has addressed during 
his years of public service, particularly fish and wildlife matters. He 
has dealt with us in a straightforward manner regarding Federal policy 
as it relates to our State agency operations.
    Our member states have extensive interaction with the agencies 
under Mr. Barry's authority. His experience in natural resource matters 
in the executive, legislative and non-profit sectors are an asset. We 
look forward to continuing this positive and successful relationship.
    Please call me if I can be of further assistance.
            Sincerely,
                                  Ray Powell, M.S., D.V.M.,
                                      Commissioner of Public Lands.
                                 ______
                                 
          Statement of the Humane Society of the United States
    On behalf of the 5.8 million members and constituents of The Humane 
Society of the United States (HSUS), I endorse the nomination of Mr. 
Donald J. Barry to be Assistant Secretary of the Interior for Fish and 
Wildlife and Parks and commend his confirmation by the U.S. Senate.
    The HSUS is committed to the creation of policy that both protects 
wildlife and secures their future in the natural world. With his vast 
experience in both national and international wildlife and habitat 
issues, Mr. Barry has the ability to take strong action to help 
wildlife at home and abroad. The officers and staff of The HSUS look 
forward to working with Mr. Barry and offer our best wishes for success 
as Assistant Secretary for Fish and Wildlife and Parks.
                                 ______
                                 
Statement of Sallyanne Harper, Nominated to be Chief Financial Officer, 
                  U.S. Environmental Protection Agency
    Good afternoon, Mr. Chairman and members of the committee. It is a 
great honor to be here today as the President's and Administrator 
Browner's nominee as the EPA's Chief Financial Officer. If confirmed, I 
would welcome this opportunity to serve the Administration and the 
American people to the best of my ability.
    As a member of the Senior Executive Service, I have been privileged 
to serve in senior career civil service positions relating to financial 
management under three Administrators. Nevertheless, I can say that the 
position for which I have been nominated presents a unique and exciting 
challenge in this time of fundamental change at EPA. With your support, 
our environmental mission has been reaffirmed and reinvigorated, and 
there is a strong focus on results-oriented resource and financial 
management.
    The American people expect the highest quality and integrity in the 
use and management of their tax dollars. I share these expectations 
and, if confirmed, will use all of my skill and energy to meet them. I 
would like to present to you a brief summary of the principles that 
will guide me, if the Senate chooses to confirm me as the Chief 
Financial Officer.
    I, and my colleagues at all levels at EPA, are driven by a strong 
personal commitment to a clean and healthy environment. At the same 
time, having dedicated my professional career to fiscal resource 
management, I firmly believe that the mission of the Agency can only be 
accomplished in an atmosphere of fiscal responsibility and good 
management.
    My goal since being appointed Acting Chief Financial Officer in 
March 1996--and a goal implicit in such statutes as the Government 
Performance and Results Act (GPRA) and the Chief Financial Officers 
Act--has been, and would continue to be, to enhance EPA's ability to 
reach its environmental objectives through more effective planning and 
resource management. I will also work to ensure that the American 
public and Congress have access to clear and comprehensive information 
on EPA's financial stewardship and on the effectiveness of the Agency's 
programs. And I recognize that the most effective way for us to 
accomplish our environmental mission is through joint action with our 
State partners.
    The management challenge at EPA extends well beyond resource 
management. The Agency must evaluate every aspect of its work to 
measure efforts against results. Are we spending scarce dollars to our 
best advantage in achieving meaningful and measurable improvements in 
environmental quality? Can we show the American public that we are 
meeting our environmental challenges and public health threats 
efficiently and effectively? In short, we are being challenged to 
manage smartly against our bottom line, which is environmental quality 
for the people of this country.
    To this end, I am deeply committed to the challenge of continuing 
the development of a comprehensive strategic planning, budgeting, 
analysis and accountability program at EPA. I believe we are on track 
and would like to present some of the highlights of our work to date in 
these areas.
    In September of last year, we delivered to you the Environmental 
Protection Agency's Strategic Plan, as required under GPRA. Through the 
process of developing this Plan, the Agency, aided by the views of its 
partners and stakeholders, engaged in an intensive evaluation of what 
we would like our work to have achieved 5 years from now.
    We have also made significant strides in the process of aligning 
our budget structure with the Strategic Plan elements. This will aid 
all participants in the budget process--both in the Administration and 
in Congress--in future years as we approach the GPRA vision of clear 
linkages between environmental results and budget decisions.
    We have begun to address the internal challenge of developing an 
accountability system that moves us away from counting ``program 
outputs'' and toward the measurement of environmental outcomes. This is 
a daunting challenge, but the cooperation of Agency managers and the 
support we are receiving from State representatives, allows me to be 
confident of success.
    All of these activities, guided by the Chief Financial Officer, 
must continue if we are to effect the major redirection toward 
performance-based management envisioned by GPRA. I pledge to continue 
these efforts.
    Should I be confirmed, I look forward to working with the 
Administrator, this Committee and other Members of Congress, and the 
broad constituencies served by EPA, to ensure the financial resources 
entrusted to us are managed wisely. Thank you for this opportunity to 
address you.
                                 ______
                                 
                Biographical Sketch of Sallyanne Harper
    Sallyanne Harper, currently the Environmental Protection Agency's 
(EPA) Acting Chief Financial Officer (CFO), has dedicated her 
professional career to fiscal resource management. Ms. Harper's public 
service experience is notable for her leadership of effective, 
productive and motivated organizations. She makes her personal 
commitment to excellence a part of the organizational culture, 
resulting in a climate that fosters respect within the organization and 
with business partners, constituents and stakeholders.
    In her capacity as Acting CFO, Ms. Harper has responsibility for 
developing and managing EPA's new Planning, Budgeting, Analysis and 
Accountability (PBAA) System. This system will integrate strategic and 
annual planning, budgeting, scientific analysis, and fiscal and program 
accountability, enabling EPA to focus its efforts on the highest 
priority environmental issues and also assure efficient use of taxpayer 
dollars in fulfilling the many environmental and public health demands 
placed on the Agency.
    Ms. Harper came to EPA in 1987, following 10 years of increasingly 
responsible positions in Procurement and Contracting with the Navy. She 
served as the Associate Director for Superfund and RCRA Procurement 
Operations until 1989, when she became Director of EPA's Financial 
Management Division. Named Deputy CFO in 1992, Ms. Harper served as 
Acting Assistant Administrator for Administration and Resources 
Management and CFO from May to November 1993, and again from July 1995 
to March 1996.
    Ms. Harper has also served the Federal financial management 
community in a number of leadership capacities. She is a former chair 
of the Federal Financial Manager's Council and the CFO Council's 
Government Performance and Results Act Implementation Committee. She 
currently serves as Secretary/Treasurer of CFO Council as well as chair 
or co-chair of several of the CFO council's committees.
    Ms. Harper graduated Magna Cum Laude from LaSalle University and 
received her MBA in Finance and Investments from George Washington 
University in 1987. She is a graduate of the Executive Excellence 
Program of the Federal Executive Institute and the Harvard University 
John F. Kennedy School of Government's Senior Managers in Government 
Program. Her recent awards include two Meritorious Presidential Rank 
Awards, the Washington Chapter AGA Distinguished Leadership Award, and 
EPA's Bronze, Silver and Gold Medals for Exceptional Service.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Responses by Sallyanne Harper to Questions by Chairman Chafee
    Question 1a. What specific recommendations do you have to help the 
agency make its programs and operations more efficient?
    Answer. EPA has used the Government Performance and Results Act 
(GPRA) as an opportunity to make our programs and operations more 
efficient. For example, our FY 1999 Annual Plan to Congress is the 
first budget that reflects EPA's new approach of goal-based budgeting. 
In particular, we have developed key performance goals which assist us 
in measuring environmental progress. Future resource decisions will be 
based on the achievement of these goals. We have also created the 
Office of the Chief Financial Officer, with a new Planning, 
Accountability and Analysis office, which works directly with our 
budget and finance divisions to ensure that budgeting, planning, and 
accountability are part of the same operational process. In addition, 
there are other initiatives underway to help the Agency better manage 
its programs and improve customer support by reducing the 
administrative burden. For example, we are working to implement the new 
managerial cost accounting standard so that managers will have the cost 
information they need to help in their priority setting and evaluation 
processes. We are also continually upgrading our financial systems to 
meet changing requirements and better serve our customers.
    Question 1b. What can Congress do to be helpful to that end?
    Answer. We intend to work closely with Congress as we strive to 
develop the systems and processes necessary to improve resource 
management in the Agency. We would also welcome feedback from Congress 
on how we have restructured our budget in compliance with the 
Government Performance and Results Act as well as on the development of 
the Agency's goals and measurements. We will also seek the advice of 
the Senate Environment and Public Works Committee as we identify areas 
that have potential to increase the Agency's efficiency.
    Question 2. If confirmed as Chief Financial Officer, what 
contributions do you hope to leave with the Agency?
    I would hope to leave the Agency a fully-implemented, comprehensive 
strategic planning, budgeting, analysis, and accountability program. 
Such a program, as envisioned in the Government Performance and Results 
Act of 1993 (GPRA), would provide the very clear linkages that we need 
between environmental results and budget decisions. Such a legacy would 
ensure that we could reach our environmental and public health 
objectives effectively and efficiently for many years to come.
    Question 3. Page four of your testimony mentions the Agency's 
moving away from ``program outputs'' toward the measurement of 
environmental outcomes. Would you give us a specific example of this 
change?
    Program outputs are the direct results of day-to-day work performed 
by EPA employees, and they are generally easy to identify and measure. 
An example from the Agency's water program is the issuance of 
wastewater discharge permits. These permits are developed by EPA staff 
and by State staff in those states delegated to run this Clean Water 
Act program. The programmatic result of these outputs is generally 
measured by estimating the pounds of pollutants that are no longer 
discharged to the water bodies receiving the wastewater effluent. EPA 
and the states can readily track and measure these two types of 
results.
    But what really matters in the long run is whether the quality of 
the water in the receiving stream, lake or estuary is improving in a 
measurable way. This is what we mean by the term ``environmental 
outcome.'' While EPA and the states currently measure water quality, we 
need to make improvements in the quality, consistency, and scope of 
these assessments (for example, only 17 percent of the Nation's rivers 
and streams are regularly assessed). While it is important to know that 
all dischargers subject to the statute are permitted and meeting their 
discharge requirements (and, in fact, this output information helps us 
determine how best to achieve the environmental outcome), we believe 
the success of our surface water program is best judged by whether the 
waters support their intended uses--such as serving as a source of 
drinking water; for commercial or recreational fishing; and for boating 
and other recreational uses.
  

                                   <all>
</pre></body></html>
